<html>
<title> - [H.A.S.C. No. 114-31]- THE DEPARTMENT OF DEFENSE'S READINESS POSTURE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 114-31]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

             THE DEPARTMENT OF DEFENSE'S READINESS POSTURE

                               __________

                              HEARING HELD
                             MARCH 26, 2015


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                     


                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-233                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                     
  






                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York          JOAQUIN CASTRO, Texas
FRANK A. LoBIONDO, New Jersey        TAMMY DUCKWORTH, Illinois
MIKE ROGERS, Alabama                 SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      TULSI GABBARD, Hawaii
RICHARD B. NUGENT, Florida           BETO O'ROURKE, Texas
BRAD R. WENSTRUP, Ohio               RUBEN GALLEGO, Arizona
SAM GRAVES, Missouri
STEVE RUSSELL, Oklahoma
                Ryan Crumpler, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

Allyn, GEN Daniel B., USA, Vice Chief of Staff, U.S. Army........     6
Howard, ADM Michelle, USN, Vice Chief of Naval Operations, U.S. 
  Navy...........................................................     7
Paxton, Gen John, USMC, Assistant Commandant, U.S. Marine Corps..     8
Spencer, Gen Larry O., USAF, Vice Chief of Staff, U.S. Air Force.    10

                                APPENDIX

Prepared Statements:

    Allyn, GEN Daniel B..........................................    42
    Howard, ADM Michelle.........................................    63
    Paxton, Gen John.............................................    76
    Spencer, Gen Larry O.........................................    92
    Wittman, Hon. Robert J.......................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   103
    Mr. Nugent...................................................   103
    Mr. Shuster..................................................   104
    
 
        THE DEPARTMENT OF DEFENSE'S READINESS POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                          Washington, DC, Thursday, March 26, 2015.
    The subcommittee met, pursuant to call, at 7:59 a.m., in 
room 2212, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. We call to order the Subcommittee on Readiness 
of the House Armed Services Committee. Mr. Crumpler said he 
will blow reveille for us this morning.
    I would like to thank our witnesses for joining us this 
morning. I would like to thank our committee members. I want to 
thank all of our witnesses again for taking time to join us 
today. This is an important hearing determining where we are 
currently with the state of readiness and the challenges that 
we have before us.
    This morning we have with us General Daniel Allyn, Vice 
Chief of Staff, U.S. Army; Admiral Michelle Howard, Vice Chief 
of Naval Operations; General Larry Spencer, Vice Chief of the 
United States Air Force, Vice Chief of Staff; General John 
Paxton, Assistant Commandant, United States Marine Corps. 
Folks, thank you so much for being here with us this morning. 
Thanks for your perspective and for your service to our Nation.
    As we know, for the past 3 years the Readiness Subcommittee 
has held a number of briefings and hearings on the state of 
readiness in our Armed Forces. Without exception, we have heard 
time and time again of our witnesses, both here with us this 
morning and from others that our readiness is in peril. We are 
also challenged in our ability to meet combatant commander 
demands and to restore readiness to any level that any of us 
believe is acceptable.
    We have also heard about the self-inflicted damage that we 
have placed upon this Nation's capacity to deal with potential 
adversaries done by the sequester.
    Chairman Dempsey characterized our situation at our Armed 
Services Committee retreat as being on the ragged edge. And he 
even stated that the President's budget still puts us just at 
that ragged edge. He warned that we are moving toward a 
military that is challenged to execute the most basic strategic 
requirement of the U.S. military, defeating an enemy in a 
single major theater operation. And this, to all of us, is 
unacceptable.
    I believe, as I am sure you do, that we are critically 
challenged today in our ability to perform steady-state 
missions and simultaneously respond to an unforeseen 
contingency.
    I also remain concerned that, even at the President's 
budget levels of funding, we accept too much risk. I believe 
that there is a lack of understanding of what risk entails, 
being able to bring to bear too little, too late, and with 
increased casualties and possibly even the inability to 
accomplish the mission. That is a place where we do not want to 
be. We have seen ourselves in that place at other times in this 
Nation's history. And by any measure, it is unacceptable.
    I do look forward to this morning's briefing in learning 
where we are today, in terms of overall readiness. And I hope 
that our witnesses can touch on the risk inherent in the fiscal 
year 2016 budget and provide some specific examples of 
challenges in matching ready and available forces to what the 
Department referred to in the budget materials as ``severe 
deployment demands.''
    I would like now to turn to our ranking member, Ms. 
Madeleine Bordallo, for her opening comments. Madeleine, thank 
you.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 41.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman, 
and I thank the witnesses, too. And we were briefed in our 
offices. And I appreciate your coming to see me and, of course, 
the chairman as well.
    We all appreciate the great sacrifices that every service 
member makes when joining the Armed Forces. At today's hearing, 
we are making sure that Congress is providing the right 
resources to support our service members, especially in regard 
to their overall readiness. However, we hold this hearing on 
the day after we voted for a budget resolution that undermines 
defense and uses gimmicks to act like we are truly--have 
boasted defense spending.
    The budget resolution that this House passed effectively 
continues sequestration. The budget resolution will inhibit the 
Department of Defense's ability to effectively plan and program 
for future years, a shortcoming that numerous defense officials 
have lambasted before the committee these past years.
    We have neglected to do our very basic job of providing 
adequate funding for our military. We convene this hearing at a 
time when the world and this country face seemingly countless 
challenges to our very way of life. We face challenges in the 
Asia-Pacific, with an erratic dictator in North Korea, whose 
every move seems to challenge our status quo and has been quite 
provocative at times.
    The Chinese continue to foster instability in the South 
China seas, with development of manmade islands and continue to 
challenge Japan's sovereignty over the Senkaku Islands. Russia 
continues to foster instability in Ukraine and may be trying to 
provoke problems in other Baltic and Scandinavian nations. Most 
visible are the atrocities of the ISIL [Islamic State of Iraq 
and the Levant] and their barbaric actions against all people, 
including fellow Moslems.
    And I mention all this, knowing there are also challenges 
in Africa and other regions of the world. Although we ramp down 
from more than a decade of war, we find ourselves in a world 
that remains dynamic and challenging. U.S. leadership is needed 
across the globe and we cannot neglect our obligation and 
commitments to our allies.
    Unfortunately, I fear that the budget resolution this House 
passed yesterday undermines our ability to project power and 
maintain commitments to our allies. We all know that when 
sequestration hit in 2013, most of the cuts were taken from the 
operation and maintenance accounts. The effect of these cuts is 
still being felt today. And in the fiscal year 2016 budget 
request, we know that only about 50 percent of the Air Force's 
fighter squadrons are ready to meet their operational 
requirements.
    General Odierno has indicated that the Army's readiness is 
at its lowest level in 20 years. That is just a small sampling 
of the very real readiness challenges that we face today, due, 
in great part, to sequestration and the lack of predictable 
budgets that would allow the Department to plan and program for 
the rest of the years.
    And I hope that our witnesses today can comment on the 
impact of having a sequestration-level base budget with 
increases in the OCO [overseas contingency operations] account. 
What impact will this have on the readiness of our forces? Will 
we be able to executive that funding within the constraints 
that exist on the obligation of funds in that account? How does 
cementing sequestration levels in the base budget impact 
planning for the future years?
    Further, I hope that our witnesses can speak out on what 
would happen to future budgets' additional OCO funding--were 
not provided to offset a sequestration-based budget. What 
impact would this have on the readiness of our forces and can 
you provide specific examples of where we would take 
significant risk and what capabilities would we simply lose?
    Today's hearing is an important opportunity to educate this 
subcommittee, but more importantly, our colleagues on other 
committees, about the very real readiness challenges that we 
face. And I hope that our witnesses will help us understand the 
problems that we have created in funding the base budget at 
sequestration levels and providing additional funds in OCO.
    Unfortunately, I fear this testimony will fall on deaf 
ears, and we will continue to allow ideology to drive our 
military's funding and undermine our military's readiness.
    And I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo. I am going to go now 
to Ms. Stefanik.
    Ms. Stefanik. Thank you very much, Mr. Chair.
    I will pass. I didn't realize I had an opening statement.
    Mr. Wittman. Oh, no. Well, we are going to go right into 
questions.
    Ms. Stefanik. We are going to questions. Okay. Thank you.
    Mr. Wittman. And pass by my questions. I am going to defer 
to the committee members and I will go ahead and ask last, just 
so that we can make sure we get to our committee members.
    Ms. Stefanik. Great. Thank you very much, Mr. Chair.
    Mr. Wittman. Sure.
    Ms. Stefanik. Thanks for clarification.
    Mr. Wittman. Sure.
    Ms. Stefanik. Thank you to all of the witnesses who are 
here today. Thank you for your service. I wanted to ask about 
the long-term impacts of severe deployment demands. I represent 
the 10th Mountain Division, based at Fort Drum. And especially 
as we continue to draw down end strength, what are we doing to 
enable units more time to train and regain full-spectrum 
readiness, and how does the fiscal year 2016 budget support 
that effort?
    General Allyn. ``Climb to Glory,'' ma'am. General Allyn 
here. And I will speak partly to the 10th Mountain Division 
that I know you know very well from your visits there at Fort 
Drum, but more broadly to the United States Army as a whole. 
Quite frankly, as we reduce our end strength on the current 
ramp toward 450,000, it does increase the demands on our 
trained and ready forces.
    And so, our goal is to get to a point where we are at a 
dwell-to-deployment ratio of 1:2. Right now, if you do not 
factor in our Pacific-based forces that we have protected from 
global deployments, by and large, so that they can stay focused 
in that critical region of the world, our dwell-to-deployment 
ratio for the rest of our brigade combat teams, like the 10th 
Mountain Division, is at 1:1.6.
    And so, we are well below the--what we consider to be the 
sustainable level. And you highlighted exactly why it is so 
important. We need time to restore full-spectrum readiness as 
we come back from these important missions that we are 
supporting for the Nation around the globe.
    And I know that you are aware that we have about 140,000 
U.S. Army soldiers forward deployed, forward stationed and 
performing missions in about 140 countries, as we speak this 
morning. And so, I hope that addresses your specific question 
in terms of why it is so important that we fund the budget, at 
a minimum, to the President's budget, because it is absolutely 
the minimum that we can continue to meet the current demands.
    And quite frankly, we are consuming readiness as fast as we 
are generating it today. And so, we are not building surge 
capacity, we are not building a continuous response capability 
like you spoke to.
    Ms. Stefanik. Admiral Howard.
    Admiral Howard. Thank you, Congresswoman.
    For the Navy, the core piece to our readiness is our 
capital ships. And we have had extended deployments over the 
last 15 years. We are trying to go back to a normalized 
deployment of 7 months. But for the last 15 years, they have 
been 8, 9, 10 months. So we have to reset those ships. We had 
to stretch out and sometimes not do the maintenance avails 
[availabilities], which is the very first phase of getting a 
capital ship ready to bring--upload the crew or to bring 
onboard the Marines.
    With this particular budget, we are still in reset, taking 
those ships through drydocking, through overhauls, all the way 
up through fiscal year 2018 for our carrier strike groups. And 
then we don't reset and recover the maintenance on our 
amphibious ships until fiscal year 2020.
    So for us, these platforms are the way we project power and 
they have got to be--go through overhaul and to recover from 
the high OPTEMPO [operations tempo] that we placed them under 
during the last 15 years.
    Thank you.
    Ms. Stefanik. General Paxton.
    General Paxton. Thank you, Congresswoman.
    And for the Marine Corps, this story is almost identical. 
We are consuming readiness faster than we can generate it. To 
your specific question, ma'am, we--in the Marine Corps, we 
believe we are the Nation's 911 force, the crisis response 
force. We have every expectation that we will be forward 
deployed. But right now our dep-to-dwell [deployment-to-dwell] 
is less than 1:2. It is at 1:2, overall. That is the way we 
advertise, that is the way we testify.
    We have certain critical communities, right now some of our 
infantry battalions, our refueling squadrons, some of our 
fixed-wing squadrons, that are less than a 1:2, as General 
Allyn just mentioned.
    In an optimal world, we would like to get to 1:3. The 
challenge with being at a 1:2 over a sustained period is 
exactly what you said. We will be ready for the crisis. You 
will have ready Marine units on ships with aircraft ready to go 
into harm's way to fight tonight to do exactly what the Nation 
needs.
    The challenge is that the next to deploy will be in a 
degraded state of readiness. Right now we have over 50 percent 
of our home station units in what we call degraded readiness, 
C3 or C4. They don't have their proper equipment, they don't 
have the right skilled leadership at the small unit level, they 
don't have the right training opportunities. And this is 
dependent on O&M [operations and maintenance] dollars, on TOA 
[total obligation authority], on fixed allocation of resources.
    Right now under a BCA [Budget Control Act] cap that will 
continue to get worse. It has been bad since 2013. We are still 
feeling the effects of our fixed-wing depot maintenance and our 
flight rehab [rehabilitation] facilities, and in our shipyards, 
in our Federal shipyards, where the artisans left, the people 
were furloughed, the equipment was not being maintained, and we 
are still in the downward spiral from that, from 2013 right 
now.
    So if the BCA caps continue, you can expect that to get 
exacerbated.
    Thank you, ma'am.
    Ms. Stefanik. General Spencer.
    General Spencer. Good morning, Congresswoman.
    Yes, this--so the crux of your question is really a good 
one, and that is, what are we doing to reduce our dwell so that 
our folks can come back and become full-spectrum trained? The 
problem is we are not and because the OPSTEMPO has not dropped. 
And like the other services, the reason that really puts us in 
such a bind is because if you think about the capacity we have 
and the age of the systems that we have, that is really where 
all the stress is.
    To give you some specifics, you know, during Operation 
Desert Storm, in the Air Force we had 134 combat fighter 
squadrons. Today we have 55. We are on our way to 49. To give 
you some additional perspective, and during Desert Storm when 
we had that 134 fighter squadrons, we deployed 33 of those to 
Desert Storm. So think about now, we have--today we have 54, if 
we had Desert Storm today what the impact would be.
    We have--our tankers are 52 years old, bombers 50 years 
old. Our fourth-generation fighters are on average 25 years 
old.
    My colleagues here sometimes accuse me of being a pilot 
back during the B-17, but the reason they do that is because of 
this statement, which is true, and think about this, though. In 
1999, if we had used the B-17 bomber to strike targets in 
Baghdad during the first Gulf War, it would have been younger 
than the B-52, the KC-135, and the U-2 are today.
    So that is--if you couple the stress of deployments, the 
stress--the OPSTEMPO, deploy-to-dwell, with the reduced 
capacity and the age of our fleets, that in essence is where we 
are.
    Ms. Stefanik. Thank you very much. I am over my time. 
Thanks, Mr. Chairman, for the flexibility.
    Mr. Wittman. No problem. Thank you. I want to remind our 
witnesses that your full statements are going to be entered 
into the record, and if you would like at this time you can 
make a brief opening statement in the summary of that, and then 
we will go to Ms. Bordallo.
    General Allyn.
    General Allyn. We are very flexible, Chairman.
    Mr. Wittman. Yes, indeed.

  STATEMENT OF GEN DANIEL B. ALLYN, USA, VICE CHIEF OF STAFF, 
                           U.S. ARMY

    General Allyn. Chairman Wittman, Ranking Member Bordallo, 
distinguished members of the subcommittee, thank you for the 
opportunity to testify on the readiness of your United States 
Army.
    On behalf of our Secretary, the Honorable John McHugh, and 
our Chief of Staff, General Ray Odierno, I thank you for your 
support and demonstrated commitment to our soldiers, Army 
civilians, families, and veterans. There are over 140,000 
soldiers committed around the globe, partnered with our allies 
in response to increasing instability across Europe, the Middle 
East, Africa, and the Pacific, continuing the mission in 
Afghanistan, and reacting to humanitarian crises.
    The velocity of instability is increasing, and now is not 
the time to drastically reduce our capability and capacity. The 
Army needs Congress to provide adequate, consistent, and 
predictable funding.
    Today only 33 percent of our brigades are ready, when our 
sustained readiness rate should be closer to 70 percent. The 
fiscal year 2015 enacted funding for our Army is $5.1 billion 
less than last year's budget and challenges our commanders and 
leaders across our Army to sustain our hard-fought gains in 
readiness.
    We are funded to achieve just enough readiness for 
immediate consumption and are unable to generate the readiness 
required to respond to an emerging contingency.
    While the fiscal year 2015 budget constrains training, we 
remain committed to our combat training center rotations to 
develop leaders and build unit readiness. We accept risk in 
home station training to conserve resources for the combat 
training centers. The result of this approach is that units 
arrive at our combat training centers not fully trained and 
ready for these complex training scenarios, and therefore 
unable to derive the full benefit of the training that is 
provided.
    Under the President's budget in fiscal year 2016, our goal 
is to increase regular Army brigade combat team readiness to 70 
percent, allowing us to balance force requirements while 
maintaining some surge capacity. But we need consistent 
resources to get there.
    Sequestration will undermine readiness, ultimately putting 
soldiers' lives at risk and will increase significantly the 
involuntary separation of officer and noncommissioned officer 
leaders who have steadfastly served their country through the 
last 13 years of war.
    Sequestration will also severely impact our ability to 
maintain our installation readiness and protect the industrial 
base, both key components to maintaining a ready force. It will 
cut essential funds from military construction, sustainment, 
restoration, and modernization on our installations.
    Sequestration will degrade the industrial base's ability to 
sustain the lifecycle readiness of warfighting equipment, while 
also maintaining the capability to surge to meet future 
demands.
    To achieve our required readiness level in fiscal year 
2016, we need Congress to support all of the cost-saving 
measures the Army has proposed. These include compensation 
reform, a new round of base realignment and closure, and the 
aviation restructure initiative [ARI].
    Aviation restructure eliminates 700 aircraft from the 
Active Component and 111 from the Guard and Reserve, but 
increases readiness and saves $12 billion. If the Army does not 
execute ARI, we will incur additional costs buying aircraft and 
performing maintenance at the expense of modernizing our 
systems and maintaining readiness for a heroic total force 
aviators.
    The Army remains committed to protecting our most important 
resource, our soldiers, civilians, and families. We build 
leaders of character and trusted professionals who provide an 
environment where every member of our great Army is treated 
with dignity and respect, supported by essential soldier and 
family programs. We will protect our most vital programs, but 
sequestration-driven budget cuts affect every facet of our 
Army.
    I thank you again for your steadfast support of the 
outstanding men and women of the United States Army and I look 
forward to your questions.
    [The prepared statement of General Allyn can be found in 
the Appendix on page 42.]
    Mr. Wittman. Thank you, General Allyn.
    Admiral Howard.

  STATEMENT OF ADM MICHELLE HOWARD, USN, VICE CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Howard. Chairman Wittman, Ranking Member Bordallo, 
and distinguished members of the committee, thank you for the 
opportunity to testify today. It is my honor to represent the 
Navy's Active and Reserve sailors and civilians, and 
particularly the 41,000 sailors who are underway and deployed 
around the world today. They are standing the watch right now 
and ready to meet today's security challenges.
    The citizens of this Nation can take great pride in the 
daily contributions of their sons and daughters who fulfill our 
Navy's longstanding mandate to be where it matters when it 
matters. And recent events exemplify the benefit of forward 
presence. Last August, the George Herbert Walker Bush Carrier 
Strike Group relocated 750 nautical miles from the Arabian Sea 
to the Arabian Gulf in less than 30 hours to respond to ISIL 
attacks in Iraq. They executed 20 to 30 combat sorties per day, 
and for 54 days they were the only coalition strike option to 
project power against ISIL.
    I want to make it clear, the fiscal year budget--the fiscal 
year 2016 budget is the minimum funding required to execute the 
Nation's defense strategy. In other words, if we return to a 
sequestered budget, we will not be able to execute the Defense 
Strategic Guidance.
    Past budget shortfalls have forced us to accept significant 
risk in two important mission areas. The first mission at risk 
is deter and defeat aggression, which means to win a war in one 
theater, while deterring another adversary in a different 
theater. Assuming risk in this mission leads to a loss of 
credibility in the ability to assure our allies of our support.
    The second mission at risk is to project power despite 
anti-access/area denial challenges. This brings risk in our 
ability to win in war. Some of our people and platforms will 
arrive late to the fight and inadequately prepared. They will 
arrive with insufficient ordnance and without the modern combat 
system sensors and networks required to win. Ultimately this 
means more ships and aircraft out of action, more sailors, 
marines, and merchant marines killed.
    Our Navy will continue to ensure the security of the 
maritime domain by sustaining its forward presence, warfighting 
focus, and readiness preparations to continue operating where 
it matters and when it matters. Since there is no foreseeable 
reduction to global maritime requirements, we have focused our 
fiscal year 2016 Navy budget to address the challenges to 
achieving the necessary readiness to execute our missions. Any 
funding below this submission requires a revision of the 
defense strategy.
    So to put it simply, sequestration will gravely damage the 
national security of our country.
    Despite these challenges, we are fortunate to have the 
highest quality, most diverse force in my Navy history. These 
outstanding men and women who serve our Nation at sea make us 
the finest navy in the world. So on behalf of all those Active 
and Reserve sailors, and our civilians and their families, I 
extend our appreciation to this committee for your efforts and 
your continued support to keep our Navy ready to defend this 
Nation.
    [The prepared statement of Admiral Howard can be found in 
the Appendix on page 63.]
    Mr. Wittman. Admiral Howard, thank you.
    General Paxton.

STATEMENT OF GEN JOHN PAXTON, USMC, ASSISTANT COMMANDANT, U.S. 
                          MARINE CORPS

    General Paxton. Good morning and thank you, Chairman 
Wittman, Ranking Member Bordallo, and distinguished members of 
the subcommittee. I appreciate having the opportunity to appear 
before you today and to report on the readiness of your United 
States Marine Corps.
    Today, as always, your Marine Corps is committed to 
remaining our Nation's ready force, a force that is truly 
capable of responding to a crisis anywhere around the globe, at 
a moment's notice.
    I know that this committee and the American people have 
high expectations of your marines. You expect your marines to 
operate forward, to stay engaged with our partners, to deter 
potential adversaries, and to respond to crises. And when we 
fight, you always expect us to win. You expect a lot of your 
marines, and you should.
    As we gather today, more than 31,000 marines are forward-
deployed and forward-engaged. They are doing just what you and 
we expect them to be doing. Our role as our Nation's ready 
force continues to inform how we man, train, and equip the 
Marine Corps. It also prioritizes the allocation of the 
resources that we receive from Congress. And I can assure you 
that your forward-deployed marines are indeed well-trained, 
well-led, and well-equipped.
    In fact, our readiness was proven last year as your Marine 
Corps supported recent evacuations of American citizens in 
South Sudan, in Libya, and in Yemen. Those ready forces are 
also currently engaged in the Middle East in conducting strike 
operations against ISIL in Syria and Iraq, through training the 
Iraqi Army units, and through protecting our embassy compound 
in Baghdad.
    They also routinely deploy and exercise across the Asia-
Pacific region where over 21,000 are currently west of the 
International Date Line. All of these events demonstrate the 
reality and the necessity of maintaining a combat ready force 
that is capable of handling today's crisis today. Such an 
investment is essential to maintaining our Nation's security 
and our prosperity for the future.
    While we work hard with you, in order to maintain the 
readiness of all our forward-deployed forces, we have not 
sufficiently invested in our home station readiness and our 
next-to-deploy forces. We have also underfunded or delayed full 
funding for modernization, for infrastructure sustainment, and 
for some of our quality-of-life programs.
    As a result, approximately half of our non-deployed units 
are suffering personnel, equipment, or training shortfalls. 
Ultimately, this has created an imbalance in our overall 
institutional readiness.
    At the foundation of our readiness, we will emphasize and 
we do emphasize that all marines and all units are physically 
and mentally ready, are fully equipped, and have sufficient 
time to train at home station with quality small-unit leaders 
at the helm. They are, thus, ready to go anywhere when they are 
called.
    As we continue to face the possibility of full 
implementation of the Budget Control Act, our future capacity 
for crisis response, as well as major contingency response is 
likely to be significantly reduced. Quite simply, if our home 
station units are not ready, due to a lack of training, 
manning, or equipment, it could mean a delayed response to 
resolve that contingency or to execute an operational plan. 
Both of which would consider and create unacceptable risks for 
our national defense strategy, as well as risks to the limits 
of mission accomplishment or perhaps physical risk to the force 
itself.
    The readiness challenges we already see today provide 
context for our messages this morning. Your United States 
Marine Corps can, indeed, meet the requirements of the Defense 
Strategic Guidance with the President's budget [PB]. But there 
is no margin.
    As the Chairman stated, Chairman of the Joint Chiefs, 
several weeks ago, even under PB16 [2016], we are already at 
the ragged lower edge for overall readiness. I thank each of 
you for your faithfulness to our Nation, your support for the 
Department and our services. I request that the written 
statement be submitted for the record and I look forward to 
your questions. Thank you, sir.
    [The prepared statement of General Paxton can be found in 
the Appendix on page 76.]
    Mr. Wittman. Very good. Thank you, General Paxton.
    General Spencer.

 STATEMENT OF GEN LARRY O. SPENCER, USAF, VICE CHIEF OF STAFF, 
                         U.S. AIR FORCE

    General Spencer. Good morning, Chairman Wittman and Ranking 
Member Bordallo and distinguished members of the subcommittee, 
thank you for your continued support of America's airmen and 
their families and for the opportunity to share the Air Force's 
current readiness posture.
    The United States Air Force is the most globally engaged 
air force on the planet, and our airmen are defending the 
Nation through a wide spectrum of activities, from dropping 
bombs and flying space assets, to delivering humanitarian 
relief and protecting the homeland. We remain the best air 
force in the world. But with recent budget cuts, coupled with 
24 years of combat operations, it has taken its toll.
    Our airmen have always been and will always be the 
cornerstone of the Air Force and the combatant commanders tell 
us that our airmen continue to perform exceptionally well 
across the entire globe. However, we are the smallest and 
oldest Air Force we have ever been, while the demand for 
airpower continues to climb. This is not a complaint. We are 
happy that what we bring to the table is recognized as 
indispensable, when it comes to meeting the Nation's 
objectives.
    But, I am concerned. I am more concerned today than I was 
at my last testimony. We have to modernize to maintain our 
technological advantage and this is something we have set aside 
over the last few years. Our potential enemies or adversaries 
have been watching us and now know what it takes to create the 
best air force in the world.
    They are investing in technologies and doing everything 
they can to reduce our current airpower advantage. Because we 
have the smallest and oldest Air Force in history, we need all 
of our airmen to be proficient in every aspect of their 
mission. Unfortunately our high operations tempo has caused our 
airmen to only be proficient in the jobs they do when they 
deploy. We simply do not have the time and resources to train 
airmen across the full spectrum of Air Force missions.
    I am confident that, with your help, we can reverse this 
trend and regain our readiness. But, we will have to make some 
difficult choices to balance capacity, capability, and 
readiness, all of which have been already cut to the bone.
    Our fiscal year 2016 President's budget submission aims to 
balance critical operational training and modernization 
commitments. But even at this level, it will take years to 
recover lost readiness. We have already delayed major 
modernization efforts, cut manpower, and reduced training 
dollars.
    One final point, the capability gap that separates us from 
the other air forces is narrowing. That gap will close even 
faster under BCA levels of funding. When sequestration first 
hit in 2013, we saw the domino effect it had on our pilots, 
maintainers, weapons loaders, air traffic controllers, and our 
fighter and bomber squadrons. Readiness levels of those central 
combat operations plummeted. In short, we were not fully ready, 
and we cannot afford to let that happen again.
    To quote a young C-17 instructor pilot, ``I am committed to 
defending this Nation any time and any place. But I need the 
training and equipment to be ready to perform at my best.'' 
This is critical to answering the Nation's call to fly, fight, 
and win.
    I would like to thank all of you for the opportunity to be 
here today and your continued support of your Air Force. I am 
now happy to take your questions.
    [The prepared statement of General Spencer can be found in 
the Appendix on page 92.]
    Mr. Wittman. General Spencer, thank you. And thank the 
members of the panel here. Before I go to Ms. Bordallo, I do 
want to make a comment. Obviously, yesterday's budget that 
passed does put money back into the Nation's military. Much of 
it in the overseas contingency operation funds. The good new is 
that it does allow the HASC [House Armed Services Committee] to 
authorize to $613 billion. And it allows the appropriators to 
appropriate to that number. It puts no restrictions on how the 
OCO dollars are then used to do that.
    Now there are internal OMB [Office of Management and 
Budget] restrictions that we are going to have to address, I 
believe, in that particular effort. It is not the best way to 
run the military, to do funding that is base mission through 
contingency funding. The definition of contingency is something 
that is unusual or unexpected. Obviously, funding this Nation's 
military is not unusual or unexpected. So it does create, 
again, a gap next year.
    I think, though, if used properly, it can be a forcing 
mechanism to make Congress come to grips with the tough 
decisions it has to make and it is not just there in the 
spending on the military side. It is the most immediate. The 
Congress has to address all the different parts of the budget. 
And if it doesn't address the biggest ticket items, the 
autopilot spending programs in an adult way, without thrashing 
each other here, and I am talking about Members of Congress 
thrashing each other about what it does or does not do to the 
individuals involved, instead, making sure that it is viable, 
then we can get this fixed.
    But our immediate challenge is to make sure the dollars are 
there for the military today. The budget that passed yesterday, 
while not the most desirable mechanism, does allow the 
appropriators and the authorizers to get to the $613 billion 
number. So it does allow at least some relief. But as with 
everything else, you want to be able to look in the window past 
this year, too, to determine the long-term needs. That is where 
our effort has to come in.
    So with that, I will go to Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. And I 
thank the witnesses for their very frank opening statements and 
the real challenges that you have to face in the future. I 
appreciate your being very forward in that.
    I have two questions, Mr. Chairman. And I would like to ask 
of each. So if you could kind of put your answers together in a 
quick way, because we do have quite a few members that I know 
want to ask questions. I will start with General Allyn. How 
does OCO funding affect execution of your current baseline 
funding?
    General Allyn. Yes. Congresswoman Bordallo, the OCO 
funding, while it is better than not receiving the increased 
funding that is essential to achieve the outcomes that the 
President's budget set forth, the restrictions that are 
inherent in OCO funding, as the chairman highlighted, with 
regard to OMB's current rules, do not allow us to have the 
flexibility required to get at home station readiness for units 
that are not deploying in support of a contingency operation. 
It also does not allow multiyear funding, which means we cannot 
use it for critical modernization programs in acquisition and 
procurement.
    And so, the restrictions truly create challenges and hard 
decisions under the current rule set. So as we discussed 
yesterday with the Senate committee, we would need 
significantly greater flexibility. What is built into the 
current President's budget is a $3 billion to $6 billion OCO-
to-base transfer requirement per year. And so what we are doing 
is increasing that through funding base requirements through 
OCO funding. And this is a year-to-year drill and we need 
predictable, consistent funding to get at the readiness that we 
are talking about here today, ma'am.
    Ms. Bordallo. Thank you. Thank you, General.
    Admiral.
    Admiral Howard. Ma'am, very similar to the Army, it is the 
multiyear constraints that is toughest for the Navy, 
particularly when you look at shipbuilding and ship 
contracting. And then for--and then in the past there have been 
restraints on OCO where it could not be used to buy individual 
platforms such as aircraft.
    And so when you look at procurement and you look at our 
ability to modernize, OCO, the way it is currently set up, is 
not available for us. And clearly for a capital ship intensive 
force, multiyear funding is essential for us to continue to 
grow the Navy. Thank you.
    Ms. Bordallo. Thank you.
    General.
    General Paxton. Yes, thank you, Congresswoman Bordallo.
    Same thing my two counterparts said. The other issue is--to 
remind is that all the services probably spend well over 50 
percent of their TOA dollar on people. They are our most 
important resource, our most important weapon. But in order to 
recruit, retain, PCS [permanent change of station] move, we 
spend most of the money on people.
    The largest chunk for most of the rest of us is in 
operations and maintenance. So the things that we need and the 
reason our readiness is degraded is because of inability to put 
sufficient money into modernization, inability to put 
sufficient money into sustainment. Modernization in the Marine 
Corps is only 9 percent of our dollar right now.
    And the OCO money addresses the O&M and the direct linkages 
to the current place we are in--it doesn't give us the help we 
need to continue to modernize and to buy those big platforms we 
need.
    So thank you, ma'am.
    Ms. Bordallo. Thank you.
    Next?
    General Spencer. Again, ma'am, similar story. A couple of 
things--the Air Force is very capital-intensive, so as General 
Allyn mentioned, the ability to plan to buy weapon systems, you 
know, F-35 bomber, tanker that we are trying to procure, C-130, 
multiyear contracts, that multiyear allows us to have a really 
good deal, funding-wise. Those type of things, it is hard to 
really plan for if you get one year's worth of money.
    The other thing is there are some issues with OCO. For 
example, one of the OCO rules allows us to buy replacement 
munitions that we have expended in the war. So we can buy smart 
munitions that can get pretty expensive, that we expended last 
year. We can't budget for projected weapons that we are going 
to use. So it puts us behind by a year. So that is something 
that would concern me.
    I haven't read the details, but I don't know what the 
timing of the OCO budget would be. Would it be simultaneous or 
would it come later? If it came later, like it does in a lot of 
cases, again, there are problems inherent with that. What is 
the total going to be, finally? How are we going to know how 
much we are going to get? What is in there between O&M and 
procurement?
    There are rules, for example, you have to execute 80 
percent of your O&M by July. If we get a late OCO, is that 
going to be a problem?
    OCO to base has been touched on. That is something we are 
all worried about. If we wake up one day and OCO is gone, what 
do we do? And you know, in the Air Force's case, we have got 
several bases in the Middle East that were stood up and are 
paid for today with OCO funding that we are told will probably 
endure, will probably stay for the long term. That is fine. But 
then we will have to figure out where does that money come from 
that is now in OCO that we will have to put into the base.
    As my colleagues already mentioned, that is now 
exacerbating this sort of OCO-to-base transfer, at some point. 
It just further mixes and blurs the lines between the base and 
emergency contingency, essentially.
    Ms. Bordallo. Thank you. Thank you.
    Now I have one quick question here, also, if you could 
answer. Current defense planning guidance says the United 
States military should be prepared to do three things: one, win 
a big war; two, prevail in a smaller contingency; and three, 
protect the homeland, all at the same time. Can your service do 
that now? And how will the fiscal year 2016 budget request 
change all of that?
    General.
    General Allyn. Yes, Congresswoman. I think we have touched 
on this already and the fact of the matter is that we are on 
the lower ragged edge of our capacity to do that with the 
President's budget.
    And the highlight that I made about our consuming readiness 
as rapidly as we are generating it means that our ability to 
respond to the unknown contingencies, to reinforce either the 
major fight or the deterrence fight is significantly strained. 
And we know what that--it is very easy to say constrain. That 
sounds clean. It is not clean.
    It means we are late to the fight in one or both locations 
with sufficient capacity and we either fail in our mission or 
we increase the loss of life to those committed forward from 
the joint force, as well as innocent civilians that we are 
charged to protect in accordance with our national security 
interests.
    Ms. Bordallo. Thank you.
    Admiral.
    Admiral Howard. Ma'am, so within those major missions you 
talked about, the Navy has some very specific responsibilities. 
One is strategic deterrence. And no matter what happens, we 
will maintain zero risk in strategic deterrence.
    But when you talk about projecting power despite anti-
access/area-denial circumstances and then this deterring and 
defeating an aggressor, winning the war, with the PB16 budget, 
those are still at risk. But if you talk BCA, then we will not 
be able to project power and we would not be able to deter and 
defeat aggression.
    Ms. Bordallo. Thank you.
    General.
    General Paxton. Thank you, Congresswoman.
    Your Marine Corps, of course, is--we consider ourselves to 
be the 911 force, the crisis response force. And that is our 
focus. So as I said in the opening statement, we guarantee that 
we will have ready forces for the fight-tonight mission. But to 
your question, ma'am, the contingency mission or the deliberate 
operations plan, that is when we have to go to our home station 
units who are already at lower than 50 percent readiness and 
are degraded.
    So the answer, then, would be yes, but. They are coming. 
Yes, they will be there, but they will be later, but they will 
not have the right leaders in the right positions, but they 
won't be fully trained. So we are going to accept risk in our 
ability to respond and to win in a contingency and in a war.
    Ms. Bordallo. Thank you.
    General.
    General Spencer. Yes, ma'am. To answer your question 
directly, could we meet the Defense Strategic Guidance at the 
President's budget level? Yes. Just barely. Could we execute 
the Defense Strategic Guidance under sequestration? No.
    One of the ways we describe the Air Force sometimes, and I 
think all my colleagues could probably describe their services 
similar, it is almost like a light switch. I mean, you cut on a 
light switch and if we go into a contingency, we expect air 
superiority to just happen. We expect if someone launches a 
weapon, a GPS [Global Positioning System] will just guide it to 
where it needs to go. You know, we expect our nuclear deterrent 
to work so we don't get a nuclear attack.
    We expect those things to happen. That is what the American 
people expect of us, and that is what we want to provide. I get 
concerned in sequestration that we are going to cut that light 
switch on and some things are not going to work.
    Ms. Bordallo. Thank you very much. Thank you, Mr. Chairman. 
I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo. We will now go to Mr. 
Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    I guess most of my questions will be for you, General 
Spencer. I want to talk a little bit about the civilian 
workforce, but I would ask a favor of you, all of you, and that 
maybe you go back and review some of the testimony from a few 
years ago when the reductions in your force were being referred 
to as rightsizing by your own leadership and it was the Armed 
Services Committee that was trying to stop those reductions in 
force size. And quite honestly the leadership at the Pentagon 
was supporting the President's position in reducing them.
    I would just ask that you go back and read the testimony of 
your leaders from just a few years ago when they felt like 
those cuts were acceptable and we were trying to stop some of 
them.
    But I represent Robins Air Force Base, a tremendous 
civilian workforce, crucial role in generating readiness for 
our Air Force. And one of my concerns is that there continue to 
be proposals to cut the civilian defense workforce. They go 
well beyond any of the Department proposals. Existing law 
already mandates cuts in the civilian workforce similar to 
those of uniformed personnel.
    And my concern is in two forms. It would have a direct 
impact on the ability to deliver weapon systems on time and on 
budget for our depots, or from our depots, I should say. And 
secondly, if you arbitrarily reduce the civilian workforce, 
would that not add stress to the uniformed personnel and 
soldiers and airmen, who would be forced to spend less time 
training for the missions and more time performing non-mission-
related tasks?
    So General Spencer, could you speak to the arbitrary cuts 
to the civilian workforce and what impact they have on Air 
Force readiness?
    General Spencer. Congressman, first of all, maybe--we are 
in violent agreement. I agree with everything you said. As you 
know, I was stationed at Robins, I have been stationed at all 
the Air Force depots. I love it. Robins is a great community, 
great workforce, great work ethic. If you could clarify for me 
the arbitrary reductions you are talking about. We have had 
some headquarters reductions, 20 percent headquarters reduction 
that was mandated by the SECDEF [Secretary of Defense].
    I am sorry.
    Mr. Scott. I am sorry, General. These are legislative 
proposals from other Members of Congress.
    General Spencer. Okay, okay, I am sorry. Yes, no, that 
would not work for us. It would not work. I am not sure if 
everyone has the sort of right perspective on civilian 
employees. You know, first of all, 96 percent of our civilian 
employees don't work in the National Capital Region. They are 
out in the field, getting our mission done, turning wrenches, 
making--launching airplanes, launching satellites. These are 
critical to the mission of the Air Force, no doubt about it.
    And so any--we cannot afford to impact our civilian 
workforce with an arbitrary cut. Period, dot.
    Mr. Scott. They are extremely skilled and when we break 
faith with them we run the risk of losing some of the most 
talented people with regard to rebuilding our airplanes and the 
weapon systems that our warfighters need. And I am extremely 
concerned about the lack of knowledge with regard to their 
value to national security with some of our members. Not with 
you or with the people at the Department of Defense, but with 
some of my colleagues.
    And just one other thing with regard to that, the trends 
and the costs of weapons and the system sustainment, the 
increases there. Can you give any assessment of what the 
drivers of that and what we can do to help reverse that trend?
    General Spencer. Yes, Congressman. One of the primary 
drivers of weapon systems sustainment cost increase is the 
aging of our systems. So as our systems get older or the parts 
break faster, a lot of the manufacturers go out of business, we 
have to manufacture the parts, it just becomes an expensive 
proposition to maintain old weapon systems.
    So we could certainly use your help not only to sustain the 
weapon systems costs that we have now, but to help us with our 
modernization so we can get new systems into our inventory.
    Mr. Scott. Thank you for that.
    And one of the things that you mentioned that I caught on 
was when manufacturers go out of business. And that is where I 
think it is extremely important for national security for us to 
maintain organic capabilities. And while we can, through 50/50 
and other things, share that workload with the private sector, 
from a national security standpoint, we have to have the 
ability as a country to deliver those weapons systems to the 
men and women in the fight.
    Again, I want to thank all of you for being here, and, you 
know, just hope again that you will take time to go back and 
look at the testimony from just a couple of years ago, where 
members of the Armed Services Committee were trying to stop the 
reductions. And it is hard for us to keep you fully funded if 
the leadership of the DOD [Department of Defense] isn't 
standing with us.
    General Paxton. Congressman Scott, if I may, sir--and this 
is the third I have been--had the honor and the privilege to 
testify before this subcommittee. And we will certainly take 
your guidance there and go back and review testimony. But I 
would just like to be clear for the record that when the 
leadership comes over to testify, we talk about the POM 
[Program Objective Memorandum] as submitted. And we talk about 
the ability to execute the defense guidance with the POM as 
submitted. When we get the marks, and then particularly, when 
we are very clear for 3 or 4 years in a row about the 
devastating effects of the Budget Control Act, we are now 4 
years into POMs that have been adjusted, and 2 years after a 
BCA.
    I think we are all pretty clear that we are at the lower 
ragged edge. And we are in hopes that through the good offices 
of this committee and subcommittee back to the larger House, we 
can send the message that this is devastating to the ability of 
the Department of Defense to safeguard the Nation.
    Mr. Scott. General, I didn't support those cuts. And I was 
concerned when I first heard about the reductions in personnel 
that it was taking this away from a primary goal of 1:3 in 
dwell time for Active Duty and 1:5 for Guard and Reserve.
    So, with that, I am past my time. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Scott.
    Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    For General Allyn, I would like to get your thoughts on a 
recent decision made to keep us at near 10,000 in Afghanistan 
through the rest of this year, first. And then along the same 
line, I would like you to discuss the Army's preparations for 
potentially having to use ground forces in Iraq and Syria.
    I know nobody wants to do that, and it is not part of the 
President's request for this authorization for use of military 
force. But I think it is within reason to assume that if we 
want to achieve the President's stated goals, with the current 
forces that are on the ground, we have to seriously consider 
this.
    I am assuming you have planned for that. And what I want to 
know is, within this budget, do we have the resources to meet 
our commitments in Afghanistan and Iraq, in addition to every 
other potential threat that has been outlined earlier.
    General Allyn. Thank you, Congressman O'Rourke. I 
appreciate both of your questions. And to Afghanistan first--I 
believe this is a very good outcome for accomplishing the 
mission that was established in what we were set forth to do 
with our Resolute Support mission.
    I was fortunate to be in Afghanistan in early February. And 
I was able to get out and meet with all of our leaders, and 
particularly with our two divisions that are deployed over 
there providing both essential mission command and advise and 
assist support to our Afghan security forces, from the 1st 
Calvary Division in Texas and from the 3rd Infantry Division in 
Georgia.
    And both of these missions were being accomplished with 
great leadership, with great focus, with great precision, but 
with significant risk, as we were drawing down the forces while 
still trying to maintain touch with the capabilities when the 
Afghan security forces that needed to be finished. So, I----
    Mr. O'Rourke. And I don't want to interrupt you, but I have 
got limited time.
    General Allyn. Okay.
    Mr. O'Rourke. The two scenarios I just described are new 
over the course of this year. We weren't necessarily 
anticipating them a year ago. How has that changed how we are 
prepared to fund those in this budget?
    General Allyn. Yes. Well, we do appreciate the increase in 
OCO because the increased numbers in Afghanistan are greater 
than what was programmed. We did, however, program to train the 
forces to backfill the forces that are there now, and to 
continue that in case it was required. So, we will be trained 
and ready to continue this mission. And I believe the OCO 
funding increase will enable us to meet that to include the 
increase in ISR [intelligence, surveillance, and 
reconnaissance] that is above what was originally programmed 
for this year. And we will meet that.
    In terms of our ability to meet the response that may be 
required in Iraq--just as we were capable of deploying the 3rd 
Brigade Combat Team of the 82nd Airborne Division in response 
to the initial advise and assist increase, we will have forces 
prepared when called.
    Now, clearly----
    Mr. O'Rourke. And those forces are funded within this 
budget?
    General Allyn. Yes. The President's budget fully funds our 
combat training center rotations, where we prepare all of our 
units for full-spectrum mission readiness.
    Sequestration will put that at risk because units will not 
arrive at the combat training centers as ready as they should 
be. And that will potentially put us at risk. So, the 
President's budget does enable us to do that.
    Mr. O'Rourke. If I am reading this correctly, the Army's 
total O&M, which funds our readiness, is down a little from 
last year. Is that reflecting the reduction in force size, and 
will that continue to track if we stay under current caps to 
2020, when the total force size is down to 420,000?
    General Allyn. Well, first of all, all of our current end 
strength above 490,000 is funded in OCO. So, it is not a 
reflection for this year of a drawdown in our force. It is 
really a reflection of we got 5 billion less dollars this year, 
and we had to take some cuts. And, as General Spencer 
highlighted, we really only have two places to draw it from. We 
are going to pay for our people, because that is a sacred trust 
and we are going to meet that requirement. So it either comes 
out of O&M or modernization. And we have had to make very hard 
choices in both of those. We reduced our modernization 25 
percent, even in the President's budget submission. And so, we 
are facing a very tough balancing act. And the reflection of 
the reduced O&M reflects that--those hard choices.
    Mr. O'Rourke. In conclusion, you know, couldn't agree more 
with General Paxton that our people are going to be our 
greatest resource and our greatest weapon. And with your 
conclusion that unless we do some difficult things, make some 
tough decisions like a BRAC [base realignment and closure], 
like rethinking compensation, pension, and health--you 
mentioned restructuring aviation--then we are going to have cut 
people. And for me, that is not acceptable.
    So, I appreciate your testimony today.
    I yield back.
    Mr. Wittman. Thank you, Mr. O'Rourke.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman. And I appreciate, once 
again, other comments that were made in regards to your candor. 
You know, I am obviously concerned about how we move forward. 
You know, we have been struggling as a Congress to figure out 
what do we do about sequestration. And that is not your 
problem. That is our problem. But I do--or I am concerned, 
though, as we move forward. I think that--I think we have 
learned some things about our withdrawal from Iraq that put us 
in the position that we are today, with trying to figure out, 
``Now, what do we do with the downfall, what is going on within 
Iraq?'' And so, you know, I was happy to see the President 
didn't draw down more troops in Afghanistan. I worry about what 
he wants to do next year, obviously, at the end of 2016, to 
draw out all of our forces. I think that we put ourselves in 
the same predicament that we are today in Iraq, where we are 
not quite ready. And I think that President Ghani made that 
pretty clear.
    While he wants to do as much as he can, that country, 
obviously, is in a tough spot. Because of their ability to 
raise money, to, you know, get employment within their own 
country. So, I worry that if we were to actually follow what 
the President wants to do, and withdraw our forces at the end 
of 2016, we would be in a comparable situation that we find 
ourselves in today in Iraq, figuring out, what do we do? And I 
agree with Mr. O'Rourke that, you know, I don't want my sons 
going back to Iraq and Afghanistan in the fight. But I also 
believe that without Americans leading from the front, that we 
will not get to the end state that we want to see ourselves in 
for those countries in question.
    So, my question is on--is obviously on readiness. And, 
General Allyn, I worry that when we hear the Army is at 33 
percent readiness, that should cause a lot of pause amongst all 
of our colleagues within the House of Representatives.
    And, you know, our constitutional requirement is to defend 
this Nation, number one--is the number one constitutional 
requirement. We kind of forgot that in the myriad of all the 
other requests and wants, and nice to have things that, you 
know, are good to have. But we forgot that we need to actually 
worry about you all in regards to providing for the common 
defense.
    I do worry when we start talking about balancing a budget 
on the backs of the men and women that are out there, that 
are--that have volunteered to serve this country. And I get 
really upset and worried that the Pentagon is--and I understand 
where you are coming from--but the Pentagon is willing to 
sacrifice some of that, you know, to meet the mission, while 
instead of saying, You know what? We need to start talking 
about keeping compensation. Now for future compensation, that 
is not an issue, I think, but you can talk about that. But I 
worry that, you know, we want to balance a budget on the backs 
of these men and women that have given everything, and are 
willing to give everything in the defense of this country.
    So, General Allyn, how do we actually--how do we keep the 
people that we are talking about, that we don't want to lose; 
those great NCOs [noncommissioned officers] and officers that 
are at risk? How do we actually keep them in service of their 
country, if we start cutting compensation?
    General Allyn. Well, thank you, Congressman Nugent. I will 
say, first and foremost, our great soldiers and leaders are 
meeting the demands that are placed before them, and are 
volunteering to stay. Our retention rate remains very, very 
high--over 113 percent last year of the goal.
    Mr. Nugent. Great.
    General Allyn. So, our leaders want to serve on this 
great----
    Mr. Nugent. I know they do. I know they do, but----
    General Allyn [continuing]. Army--and I believe that the 
most important thing that we must do is sustain their trust. 
And their trust is sustained through predictable funding that 
is consistently delivered, and enables us to have them trained 
and ready for the missions that are required of them. That is 
the first and foremost responsibility that we have.
    Because as you said, defending our Nation is job one. And 
they are committed to that and we must be committed to them. I 
will highlight that the cost of a soldier has doubled since 
2001. Okay.
    So it is important to keep that in mind and, you know, we 
believe that some of the compensation reform that we are 
proposing is reasonable, without putting the balancing the 
budget on the back of the soldier. We would never put forth 
something that puts the burden on the soldier who has 
volunteered to serve his country.
    Mr. Nugent. Well, I just know that, you know, from a family 
perspective, when--typically it is the wife who does the 
budget, who does the checks, makes sure everything gets paid. 
And when they see a reduction in their BAH [basic allowance for 
housing], that creates a stress.
    And I know we haven't actually had to deal with that yet, 
but that will create a stress on the force that may not be 
apparent today, but, you know, when you have got the wife back 
home nipping at your heels because she is the one that is doing 
the budget and writing the checks, that is a big issue. And I 
think that is one of those things that compounds in the future 
and it is not in your face today.
    And so I just--I worry from that standpoint. We need--and 
you talk about it, families are so important in keeping our 
soldiers and airmen and marines and sailors out there in the 
fight. So I appreciate all your comments.
    Anything else that anybody would like to ask?
    General Paxton. Thanks, Congressman. We are keenly aware 
that your soldiers, sailors, airmen, and marines represent 
somewhere between one-half and one percent of the American 
population. I mean, one-half of one percent, right. So our goal 
is to make sure, as General Allyn said, when they go into a 
fight, (a) we never want them to go into a fair fight. They 
ought to have all the tools at their behest to win. And we want 
them to have confidence. We want to have confidence in their 
gear, confidence in their training, and confidence in their 
leadership.
    So every time we submit the budget, every time we 
articulate the budget, every time we defend the budget, it is 
with that in mind--to take care of that one-half of one percent 
to accomplish the difficult missions our Nation gives us and to 
ensure that every soldier, sailor, airman, and marine has that 
confidence.
    And as you said a minute ago, we may enlist a soldier, 
sailor, airman, and marine, but we are going to reenlist a 
family.
    General Spencer. And Congressman, I certainly appreciate 
your comments. I am actually--I am prior enlisted. I spent 7 
years enlisted. Back then, I know what it was like to live from 
paycheck to paycheck. And my wife was nipping at my heels. 
Actually she still does. But that is a different----
    Mr. Nugent. I have been married 40 years. I understand.
    General Spencer. That is for a different hearing. But the--
what we wrestle with, I think, is balance. And so clearly we 
need to provide, I think, General Allyn used the term 
reasonable amount of compensation. But we all owe our men and 
women in uniform the equipment and the training they need if we 
have to send them in harm's way.
    And so as budgets draw down, particularly if you get into a 
sequestration environment, yes, you have to focus on 
compensation, but we have to send our folks forward in harm's 
way with the right equipment and the right training. And so, 
that is what we are wrestling with--finding out what the 
reasonable amount of compensation is in the context of 
balancing the other things that they need.
    Admiral Howard. I would like to add, their compensation for 
what we ask them to do is extremely important. But there are 
immediate impacts to the quality of their service when we 
sequester. I was the Deputy for Fleet Forces Commander when we 
sequestered in 2013.
    It is a bad day for a commander when you have to go down to 
the waterfront, go on a cruiser and tell those folks they are 
not deploying, they are not getting underway. The commanding 
officer, the chiefs, the sailors, that is how they qualify. 
That is their core profession. And they are going to be tied up 
next to a pier.
    We will lose people because they will not have satisfaction 
because they will not be able to do their jobs, as well as if 
we have to impact compensation.
    Mr. Nugent. Mr. Chairman, I appreciate the indulgence.
    Mr. Wittman. Sure. Thank you, Mr. Nugent.
    We will go now to Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman. And I appreciate the 
panelists here today. Thank you for your service, achievements, 
and sacrifices, and for the sacrifices of your families.
    Mr. Chairman, as you know, put significant emphasis on 
restoring deterrence principles of peace through strength by 
reasserting the ability of the Global Response Force. I 
acknowledge the comments here this morning with regard to 
sequester and the need for steady and consistent funding. And 
that is really a point for my colleagues here. We have to work 
together on that and have the temperament to solve these 
problems.
    We had an opportunity in 2012 with the bipartisan budget 
that was inspired by Simpson-Bowles; it only got 38 votes. 
Whatever it is, if we are going to do something big like that 
or if we are going to do something like Ryan-Murray, now is the 
time. We have got to start assembling the coalition to get that 
done.
    That being said, Mr. Chairman, what I think our committee 
should do is document the risk as it relates to the Global 
Response Force. So I have a specific question here today, 
recognizing we are in an unclassified setting, so you may not 
be able to specifically respond to it. You can maybe generally 
respond to it, but for the record, if you could specifically to 
respond to it, and the staff will assemble.
    And it has to do with the war plans now with regard to the 
Global Response Force, your specific requirements and where you 
stand today in terms of readiness to meet those requirements. 
And you use two categories, please, the President's budget and 
sequester. So we can document that here in the committee and 
that will allow us, as myself, I will own this, and then 
perhaps the committee, that we communicate with our colleagues 
that we can address this.
    So I would like to begin actually with the Air Force and 
then work our way on the panel.
    General Spencer. Yes, Congressman. Again, to answer your 
question directly, with the President's budget we could respond 
just barely. On sequestration, we could not. Probably any 
deeper than that getting into war plans I would like to come 
back and brief you in a classified session, if we could.
    [On 15 April, General Welsh gave a classified readiness 
briefing to the House Armed Services Committee in which 
Congressman Gibson was in attendance.]
    General Paxton. Yes, thank you, Congressman. And I can in 
the unclassified setting give you two fairly good illustrative 
examples. And the subject for us is amphibious ships. And we 
work very closely with my counterpart, VCNO [Vice Chief of 
Naval Operations], and with the Navy. We have probably one of 
the best working relationships we have had in years.
    But we have a problem with amphibious ships. And we have a 
problem with inventory. And we have a problem with 
availability. And there are two different metrics for doing 
this. One is the steady state, when all the combatant commands 
would like to have sailors and marines forward-deployed around 
the world to be there when it most matters and to respond at a 
crisis tonight.
    The CNO [Chief of Naval Operations] and the Commandant are 
on record as saying we need somewhere north of 50 ships to be 
able to answer all the current crisis and contingency combat 
and command requirements.
    To your specific question about war plans and contingency 
response, we know that under the two most stressing war plans, 
we would need 38 amphibious ships. That is a matter of record. 
That is a matter before Congress.
    We have agreed under our budget-constrained environment the 
better part of two decades ago that we would do it with 33. But 
that 33 was predicated on having 33 available, having the money 
for the 33, or being willing to put them in the yard for a 
required maintenance with the expectation that 90 percent of 
them will be operationally available and be able to get 
underway within the timelines to meet the war plans.
    Right now we don't have 33 ships. We don't even have 30 on 
the waterfront. We are not going to get to 33 for another year, 
and we are not going to get the right 33 until 2024, until the 
end of the decade. So we have an inventory problem.
    And then because of furlough and sequestration in the 
shipyards, we have an availability problem where we can't get 
them out and get them on their way.
    So the Navy-Marine team, in general, and the Marine Corps 
in specific, we think amphibious ships are very, very 
challenged under the current budget, let alone sequestration.
    Thank you, sir.
    Admiral Howard. Thank you, Congressman.
    As we consumed readiness and as I have mentioned earlier, 
we are in the process of resetting--doing the maintenance on a 
lot of these ships. Today we can--we keep deployed two carrier 
striker groups. So that is a carrier with a cruiser and 
associated destroyers. And we have enough readiness to have one 
that we can surge.
    And then for an Amphibious Readiness Group [ARG], which is 
normally a large amphib with two smallers, an LSD [Dock Landing 
Ship] and LPD [Landing Platform Dock], we are keeping two 
deployed with a third that we can surge. This is the lowest we 
have been probably since I have been in the Navy. And we, as 
General Paxton pointed out, we are on a path, with this budget, 
to reset and get us back to having two carriers deployed and 
three in surge capacity, and having two ARGs deployed with 
three in a standby capacity.
    For the carrier strike groups, that is about fiscal year 
2018, and then for the Amphibious Ready Groups that is about 
fiscal year 2020. But that presumes we have a budget, we have 
multiyear, we can continue to buy the ships we are buying and 
that we can continue to do the money to do the maintenance, and 
then the money to do the training for our people. Thank you.
    General Allyn. Thank you, Congressman Gibson. And it is 
appropriate for you to ask this question from a joint force 
perspective because, as you know, and thank God I have never 
deployed to war with anything less than a joint force, in our 
Army contingent of the Global Response Force is a relatively 
small component that is capable of forced entry, early entry 
operations, but absolutely dependent upon the readiness of 
follow-on forces to accomplish the missions that are likely to 
be required of it.
    And that depends upon all of us having the forces ready. As 
you know from your time in the 82nd Airborne Division, we don't 
get anywhere without the Air Force, all right. They put the air 
in airborne and the capacity to get the global reach. And we 
depend upon the forces of the Marine Corps and the Navy to 
enable us to have the joint capabilities that are required.
    So we require that. It is at risk, for sure, with 
sequestration. And we have prioritized the Army contingent, but 
we have done so by going to tier readiness and sequestration. 
So we will have a Global Response Force capability, but the 
follow-on forces will have insufficient training and 
insufficient readiness to reinforce, if required.
    Mr. Gibson. Thank you. I thank the panelists for their 
responses.
    And Mr. Chairman, as I yield back, I reiterate, I think we 
should take this on. We have--we generally have one slide that 
shows top line numbers and I think that has been effective in 
talking to our colleagues. But I think if we had a finer point, 
if we had fidelity, as it would, relates to this, and even if 
it has to go at the classified level, I think it would be 
something that very resonates among our colleagues.
    Pat, I would ask you to take this on, Pat McGuigan, with 
the staff that we can pull this together, because we are going 
to get this for the record.
    And thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Gibson. I couldn't agree with 
you more. What we have tried to do is to make sure that these 
types of bundles of information are available to everyone, but 
specifically non-HASC members to be able to sit down in a 
secure setting, because you have to be able to talk about these 
things at the top-secret level. So we will work with the staff 
to make sure that those are available. We have done those in 
the past.
    And Mr. Gibson, we will work with you and the vice chiefs 
and the chiefs and make sure we have that information 
available. And we will schedule another round of briefings for 
members to come in, so they can get the details on this.
    At this point, I ask unanimous consent that non-
subcommittee members be allowed to participate in today's 
hearing, after all subcommittee members have had an opportunity 
to ask questions. Is there objections? Without objection, non-
subcommittee members will be recognized at the appropriate time 
for 5 minutes.
    With that, Mr. Russell.
    Mr. Russell. Thank you, Mr. Chairman, for letting me join 
the committee this morning. I guess, the big concern that I 
see, and General Allyn, you pointed it out in your testimony, 
about in terms of brigades, 36 brigades will be reduced to 
individual and crew-level training. The last time that we saw 
any combination of effort among our services in--you know, with 
formations of vehicles, paratroopers, air strikes, in 
combination with all of the service forces and the harder 
things that we do, was in 2003.
    The company commanders at that time with 4 to 6 years 
service would now be battalion commanders. The battalion 
commanders at the time if they are still around, would be major 
generals. And so, we have seen a migration of leadership at 
both the NCO level and the officer level where, even knowing 
how to do these things is being lost, our core capabilities. 
And then we see a foreign policy shift with statements from the 
White House, talking about a shift to the Pacific with all of 
the difficulties that jungle warfare and long logistic lines 
would create for our armed services.
    I have to say, I can't think of a time in our history, 
except maybe 1940, where we stand a greater risk. And at that 
time, we saw 160,000 Americans surrender because we couldn't 
get to them in the Philippines. It wasn't for lack of fighting 
spirit. It wasn't for lack of training. It was just for lack of 
resources to be able to get to them. And so, with that, we all 
know that we can fight with whatever insufficient implements we 
have, if we have good, strong leaders.
    As I look at the training base and see some of that, the 
focus now is being reduced as you had mentioned, General Allyn, 
it reduced to individual and crew level with our combat 
brigades. I am sure this can be extended to fleets, airframes, 
all kinds of things. How do we survive that?
    General Allyn. Thanks, Congressman Russell. And as you 
know, the Chief of Staff of the Army's top priority for our 
Army for the last 2 years has been developing the leaders that 
will thrive in the uncertain and ambiguous world that we live 
in today. That commitment has remained and concurrent with our 
demand to restore our full-spectrum capability, the kind of 
force you talked about that fought and marched to Baghdad, that 
fought so effectively in Iraq and Afghanistan, is under way at 
our combat training centers.
    So our combat training centers deliver both the leaders 
required for the future, with the skills required to dominate 
in this uncertain world that we live in, and the agility to 
respond to the unexpected and to thrive under adversity. That 
is happening each and every day, each and every rotation at our 
combat training centers.
    We will do 14 decisive action rotations at the National 
Training Center. Fourteen brigade combat teams will receive 
that training this year, building to 17 over the course of the 
next 3 years. And so, we are getting after that, but it depends 
upon predictable funding. And it really depends upon enabling 
us to increase the funding for our home station training so we 
arrive at those training centers ready to fully take advantage 
of the complexity of the training environment we deliver and 
the challenges that occur there. And frankly, as some of our 
members have seen, our leaders respond with amazing, amazing 
results. And you can be very, very proud of how committed they 
are to being ready for the next conflict.
    Mr. Russell. Thank you.
    Admiral Howard. Thank you, Congressman. In terms of the 
rebalance to the Pacific, there may be a different perspective 
for those of us in the maritime domain. When you look at the 
countries that live in the Pacific or the Pacific Rim, they are 
investing in their militaries and they are investing in their 
navies. This is a different perspective than the countries of 
the Western nations which, some of them are struggling to meet 
2 percent of their GDP [gross domestic product] despite 
commitments.
    And in addition, I think sometimes we forget the Pacific 
not only holds countries with significant capability, like 
China, but Russia is in the Pacific. And our relationship with 
Russia, clearly, is changing. In addition, there are many 
countries that either have nuclear weapons or are attempting to 
get nuclear weapons and they, too, are in the Pacific.
    So from our perspective, when you look at who is investing 
in their navies, where there are potential fault lines of 
conflict, there is a potential it could be in the maritime 
domain. And it is our responsibility to be ready for that.
    That said, with this budget, even with the President's 
budget, we have had to slow down a modernization for both 
ballistic missile defense and then to be able to fight in an 
anti-access/area denial. And so, then under sequestration, we 
would probably lose all of our modernization. And it has 
generally been our technological edge as a Navy that has 
allowed us to maintain maritime superiority. Thank you.
    General Paxton. Thank you, Congressman Russell, nice to see 
you again. Appreciate your time.
    Mr. Russell. Good to see you, General.
    General Paxton. A little bit from both what General Allyn 
just offered and what Admiral Howard just offered. We, as a 
ground-centric force, if you will, in the Marine Corps, and as 
a Marine Air-Ground Task Force, we have aviation assets, so not 
to be confused.
    But when we look at a protracted ground campaign, we need 
to have leaders who are ready at home station, so we suffer 
from the same sacrifices we have had to make through budgetary 
constraints at home station ranges and training areas. So we 
have qualified leaders, we have qualified training. And we are 
going to guarantee--and this testimony was before you came 
today. Well, we will guarantee that the crisis response force, 
the fight-tonight force is ready to go. The issue is who is 
back at home station and have we crimped our modernization and 
our sustainment costs where we are unable to train them at home 
station.
    The second piece--back to both what Admiral Howard said 
about the Asia-Pacific region and to an earlier comment from 
General Allyn--it is a joint force. We depend on the 
capabilities of other services. If we can't train with ISR and 
get the feeds that we need, the intel [intelligence] feeds, 
which come from--a lot of them from other services, then our 
training is reduced.
    For our aviation arm and we can have all the best pilots in 
the world and we can work hard to get our aircraft through the 
maintenance pipeline, but if the ships aren't out there, then 
we don't get deck bounces, and we don't get night-vision 
qualifications. And then consequently, the unit that goes will 
get them and the unit at home station will go into the fight 
having untrained pilots. So we are at risk for that, certainly.
    General Spencer. And thank you also for your question, 
Congressman. I think the example you used in--with the 
Philippines was a good one because not much keeps me up at 
night. But the fact--I mean, the Air Force was born and it has 
its foundation in innovation and technology. And I am really 
concerned that the gap--and we have enjoyed a technological 
edge--I am really concerned that that is closing and it is 
closing pretty fast.
    And you know, we have always been in a position where our 
potential adversaries would wake up and say, where in the world 
did they get that technology from, how did they do that? I am 
afraid we are going to wake up and say, where in the world did 
they get that from and now what are we going to do about it? 
That bothers me. And I just see that walking away from us, and 
I don't--I am concerned I don't see a hue and cry as to what 
do--we need to stop this.
    And so, I couldn't agree with you more. I mean, we need the 
resources. This is not about just getting more money. I mean, 
we want to--I think the American people--I mean, this is not, 
you know, a Super Bowl game where if you lose, you come back 
and play next year. The expectation of us is we go in and we 
win and we win every time and we win decisively. And I get 
worried about that, as we continue to draw down the DOD budget, 
are we going to be to deliver that?
    Mr. Russell. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Russell. We will now go to Ms. 
Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I have 
just a simple question and maybe a statement. General Allyn, I 
was well-pleased to hear that recruitment is up to par. And you 
were the one that commented on that, were you not, the 
recruitment?
    General Allyn. Ma'am, I actually commented on retention.
    Ms. Bordallo. Retention, yes.
    General Allyn. But the recruitment this year is okay, as 
well.
    Ms. Bordallo. Good.
    General Allyn. In the future year, it is at risk.
    Ms. Bordallo. Let me--yes, let me say I am looking to the 
future. And if we continue to draw down on funding, certainly, 
we are putting our young men and women at risk. How anxious 
will they be to join the military and how will their families 
feel about this? So I think this is another situation that we 
have got to look at.
    I mean, certainly if--you know, and this is widely known, 
if sequestration continues, we have to continue to draw down on 
funding. They know that our military may weaken them, that you 
are putting their young men and women in harm's way when they 
are out there, you know, trying to win a war. So I think that 
the recruitment numbers will be probably going down as well. 
That is just a statement, and I was just thinking about it.
    But I do have a question for you, General Allyn. What is 
the status of the Army Sustainable Readiness Model? What 
assumptions are being made in the development of the model and 
how is the National Guard being incorporated into the model?
    General Allyn. Well, thank you, ma'am.
    First of all, let me hit the recruiting, because it is 
important to highlight the fact that, of our 17- to 24-year-old 
young Americans, about 360,000 of them across all of America 
meet the prerequisites to become a member of the Armed Forces. 
Okay. That is the starting point. But they are also the same 
population that the colleges are attracting and that businesses 
are attracting. And so, we are all competing for that--what I--
we like to refer to as the top 1 percent or less of America.
    The Army requires 120,000 of that 360,000 just to sustain 
our current force level, okay. So we are absolutely laser-
focused on the challenges of recruiting going forward. We are 
putting additional resources at it in terms of people and 
money. But at the end of the day, we believe that our young 
Americans still want to serve on this championship Armed Forces 
team that we field.
    And sustaining trust with our people is absolutely 
essential in accomplishing that.
    To the Sustainable Readiness Model question, it is a total 
force model. Everything that we do is about the total force. We 
fight as a total force. We train as a total force. We recruit 
as a total force. We retain as a total force. And so it is 
absolutely a component of our effort.
    And specifically what we are working with the National 
Guard Bureau on is how can we better sustain the readiness that 
we generate when we send our two National Guard brigades to our 
annual combat training center rotations? Because what the 
Active Force is able to do is within weeks of returning from a 
combat training center rotation, they are back in the field 
fixing the shortfalls that were identified to get at that peak 
level of readiness.
    For the Guard, as you know, they don't have that ability to 
do so. So we are working with them on how do we sustain that 
readiness longer, which ultimately is what we owe the American 
people? Once we train and develop readiness, we want to sustain 
it as long as we can so that we have increased surge capacity.
    Ms. Bordallo. Thank you. Thank you very much.
    And just one quick question, Mr. Chairman, to General 
Spencer. The Air Force today is responding to greater 
operational demands from--with the 35 percent fewer forces and 
aging aircraft. If smaller and more ready are mutually 
exclusive, what are the consequences--if smaller and more ready 
are mutually exclusive, what are the consequences of this?
    And in particular, how does the shortage of maintenance 
affect the Air Force's ability to generate requested forces?
    General Spencer. Yes, ma'am. Well, first, you have to--I 
would ask myself ready for what? So if we--to be--we are right 
now as small as we can get to support what the country has 
asked us to do. We really--in terms of our overall ceiling for 
manpower and our equipment, we are at the bottom right now. We 
can't go any lower, or we will have to rewrite the strategy and 
do something different.
    So getting smaller than we are now and, ``more ready,'' 
again is going to--capacity has the capability in all of it--in 
and of itself. So you have to have enough stuff to move around, 
you can't get so small and say, well, I am smaller but I am 
more ready. Ready to go do what? If you have a wide variety of 
demands and you don't have enough to go around, that formula 
won't work.
    In terms of maintenance, we are short. One of the reasons 
we drew a red line this year on drawing down the force was a 
lot of our maintenance folks, we have drawn them down too far. 
So we have got--we aren't able to generate the sorties that we 
need at our bases to make sure our pilots are trained, to make 
sure our airplanes are ready to go.
    So we have not only drawn down but we are starting to 
reallocate, if you will, folks that we have more out into our 
flight line maintenance areas.
    Ms. Bordallo. Thank you very much, General.
    And Mr. Chairman, I yield back but I do have a few more 
questions that I would like to enter into the record.
    Mr. Wittman. Sure, yes. Yes, we will make sure those 
questions get entered into the record and get the service 
branches to provide answers for you.
    I would like to thank the members of the panel for joining 
us today. I do have a couple of questions as we end, and want 
to get your direction. As you know, readiness includes not just 
training and equipping, but also the modernization element. And 
you all talked in brief about that.
    But I think it is one of the more important things that we 
have to speak about. And you all alluded to the fact that our 
adversaries are pursuing technology upgrades at light speed. 
And when we mark time and they are traveling at light speed, 
even though we have an advantage, when we are static and they 
are traveling at light speed, it doesn't take long for them to 
catch up.
    And I think by any measure, we are looking at in a fairly 
short window to be looking at their tailpipe when it comes to 
technology and maintaining that overwhelming superiority that 
General Paxton spoke about. And I think that is an obligation 
this Nation has to every man and woman that serves in the 
military.
    And that is to make sure that when they sign up, when we 
attract the best and brightest, that we also tell them we are 
going to be committed to making sure that you are properly 
compensated, but also that you have the tools necessary to be 
successful in the job that you do. And that is, we are going to 
give you overwhelming superiority so when we ask you to go into 
harm's way, you are going to have the highest probability of 
fighting to victory and coming home safe.
    We all know it is a dangerous business, but we owe it to 
our men and women to do that. If we don't commit to modernizing 
our forces, or we are stagnant in keeping up, then we do our 
men and women in the military a disservice. And we can do great 
things on the compensation side and make sure that compensation 
and benefits stay where it is.
    But as you said, the young men and women that come to the 
military come there for a variety of different purposes. 
Obviously we need to properly compensate them and to provide 
them benefits, but they come there for the challenge and they 
come there knowing that they are there to serve their country 
and they want to defend this Nation when we ask them to go into 
harm's way.
    But they also want to go there knowing that they have the 
best of what is available to do that. And doing anything less 
than that, I think is an abdication of our responsibility as 
Members of Congress under Article I, Section A of the 
Constitution, and we have to make sure that that happens.
    With that being said, we also have an obligation under this 
new budget scenario of--with a lot of what is happening being 
pursued under OCO, to make sure that we are directive in the 
budget languages. We know the way things have existed up to 
this point is OCO has been used, again, for a fairly specific 
and limited sets of operational aspects of the military.
    This budget opens it up and says we are going to allow the 
authorizers and the appropriators to appropriate and authorize 
to $613 billion. But there are still the internal OMB controls 
on what OCO is. And if the House Armed Services Committee and 
the House Appropriations Committee Subcommittee on Defense are 
not directive in the language to say this is what you will do 
with those OCO dollars, then the default position is for OMB to 
say, here are the limits and this is what you can and cannot 
spend it on.
    So I think it is incumbent upon us and I say us, both 
appropriators and authorizers, to get that right. The branches 
have told us where the needs are from the standpoint of 
training and equipping. But one of those areas that I think has 
to be emphasized in this and becomes a forcing mechanism for 
Congress next year to make sure we continue with this effort to 
modernize is to get your direction on the most pressing needs 
on modernization. And I would like for all of you to just give 
us your overview about where you believe your most pressing 
needs are in modernization, so that we have some perspective as 
authorization and appropriations take place, to understand what 
do we need to do not just on the training side and the 
equipping side--you all have given us a good perspective on 
that about where we need to go with our national training 
centers, where we need to go with getting our pilots sea time, 
to make sure that our sailors are at sea, to make sure our 
marines are also there, with the ARG to use, understanding how 
they are trained up, ready to go.
    But the place I think we haven't given the attention that 
needs to be given is on the side of modernization.
    So General Allyn, I give you the opportunity to start and 
we will move to each of the other members from there.
    General Allyn. Thanks, Chairman Wittman.
    First of all, I appreciate the highlight of the tough 
balancing act and the hard choices that we have had to make 
even with the President's budget submission. And that 
President's budget submission reflects a 25 percent cut to our 
modernization program because of the hard choices that we have 
had to make to sustain readiness, even to deliver 33 percent of 
our brigade combat teams ready to deploy globally as they are 
today.
    There are--basically a snowplow effect has gone into our 
modernization program across every program. Now we are underway 
with a critical effort in divestiture to ensure that every 
resource dollar that we put into our modernization program 
delivers the best effect to offer the best possible equipment 
to our deploying soldiers, which as you highlight, is what we 
owe to our soldiers.
    No adversary deserves a fair fight. And if we fail to 
increase our modernization efforts, as has been highlighted by 
each of my teammates, that gap is closing and we cannot allow 
that to happen.
    So for the Army, there are at least a dozen priority 
programs that require more funding, but I will highlight just a 
couple. I highlighted in my opening statement that our aviation 
restructure initiative was a budget-driven effort to increase 
readiness, increase modernization, and increase the capacity 
and capability of our aviation across the total force.
    It accelerates the UH-60M modernization for our National 
Guard by 3 to 5 years, which is really, really important for 
defense of the homeland. It is the most critical capability 
that our governors need in response to crises in the homeland.
    We have to modernize for cyber. As we have talked about 
previously, we are vulnerable to cyber attack and right now we 
are on a path for a multiyear plan to address those 
vulnerabilities. We ought not be forced to take a multiyear 
approach. We ought to be modernizing our network as rapidly as 
we possibly can, recognizing that there are always going to be 
budget constraints.
    Under sequestration, our network modernization would take a 
$400 million cut. And so, a multiyear plan would become, you 
know, exceeding beyond the POM. And that is absolutely 
unacceptable.
    The other area that we require--really a more accelerated 
approach is ensuring the installation readiness, which is a 
critical component of our training and readiness as we have 
previously talked, and specifically protecting against insider 
threat attacks.
    Right now, because of budget constraints, we have put 
soldiers at many missions, which means they are not training 
and preparing for their core combat mission. We need increased 
funding to enable us to address the insider threat to ensure 
that our installations are ready and ensure our soldiers are in 
the units training to deploy to war.
    Mr. Wittman. Thank you, General Allyn.
    Admiral Howard.
    Admiral Howard. So when we talk about modernization, you 
can see from our fiscal year 2015 budget submission to fiscal 
year 2016 where we took risk. And we took some risks by slowing 
down or deferring modernization specifically at that future 
fight in anti-access/area denial. Specifically, we took risk in 
munitions, we took risk in electronic warfare, particularly 
associated with our surface ships, and we took risk in 
ballistic missile defense.
    And then in another area where we could actually use some 
assistance, we appreciate the work we have done with Congress 
on the cruiser modification. And if we could re-look at that 
SMOSF [Ship Modernization, Operations and Sustainment Fund] 
fund and then lift restrictions, that would also help us get to 
a better modernization package. Thank you.
    Mr. Wittman. Thanks, Admiral Howard.
    General Paxton.
    General Paxton. Thank you, Chairman. Sir, we had discussed 
several times before, all of the services, when we talk about 
fiscal predictability in that top line, all of the services 
make very deliberate, very conscious, very thoughtful decisions 
about the way we are going to modernize. And when the budget 
gets sequestered, those decisions are imperiled.
    So for the Marine Corps right now, we are in the midst of 
an aviation bathtub. We made a decision several years ago that 
at least three of our fixed-wing platforms were at age limits, 
had high maintenance costs and, indeed, were not comparable to 
the cutting-edge technology and the unfair fight that we want 
to have. So we bought into the B-22 on the rotary wing and, 
more importantly today, the F-35 JSF [Joint Strike Fighter] on 
the fixed wing.
    We are in the bathtub, where we are having to retire old 
aircraft or because of other issues on sequestration, they are 
not ready basic aircraft. It takes too much to maintain them 
and get them off the line. An example with our V-22 was almost 
as soon as that rotary-wing aircraft went IOC [initial 
operational capability], it had to go FOC [full operational 
capability] and we put it in the fight in Iraq. And we are 
delighted we did it because it proved the technology, twice the 
lift, twice the payload, twice the range.
    We are convinced that the F-35 at IOC will be better than 
the AV-8 or the F-18 team at FOC or as it is today. But we are 
in the middle of that bathtub. Sequestration puts constraints 
on us with the number of aircraft we can buy. It is a joint 
service program. It is an international program. It imperils 
the issues of cost benefits and the value of quantity. So that 
is point number one, sir, on modernization.
    Point number two is you can become a hollow force, as you 
well know, sir. You can become a hollow force in many ways. You 
can become a hollow force because of insufficient people. You 
can be a hollow force because of aged equipment. So we need to 
strike a balance, all of the services, between our people, our 
equipment, and our modernization.
    The one thing we don't want to have is--in the Marine 
Corps, for example, is we don't want to have now with the V-22 
and the F-35, we don't have to have a 21st century aviation 
capability and then we don't have our ACVs [Armored Command 
Vehicles] in our ship-to-shore. We can't work with the Army on 
the JLTV [Joint Light Tactical Vehicle] and we have a 20th 
century ground capability. And then because we have done all of 
those, the maintainers are not there and we have a 19th century 
logistics capability. We have to modernize all of them 
together. And the predictability of the budget is essential for 
that, sir.
    Thank you.
    Mr. Wittman. Thanks, General Paxton.
    General Spencer.
    General Spencer. Mr. Chairman, I will start off answering 
your question with a statement. We have 12 fleets of aircraft 
in the Air Force that qualify for an antique license plate in 
the State of Virginia.
    [Laughter.]
    General Spencer. That is a fact.
    Mr. Wittman. Yes.
    General Spencer. So for us, specifically, we are--as you 
know, we are trying to field the F-35. That is crucial to 
both--many of here at the table. And some folks will say, well, 
why. Well, the majority of our fleet are fourth generation. And 
our adversaries are rolling what they could call or some would 
call a 4.5 generation.
    Now training, you know, we have the best trained pilots in 
the world. But if you put them in an airplane that has less 
capabilities than another, I mean, that is a real issue. So we 
have got to get to that fifth-generation fighter.
    We then need a long-range strike bomber, which is--will 
help us penetrate into anti-access/anti-denial areas around the 
globe. And then third--our third priority is a tanker. You 
know, I was going to say our tanker is as old as General 
Paxton, but it is not quite that old.
    [Laughter.]
    General Spencer. But it is, but they are, on average, about 
52 years old. And we have got to get those tankers in and 
rolling. As you know, we don't go very far without tankers to 
get folks across the globe. So those are our top three not to 
mention, I mean, JSTARS [Joint Surveillance Target Attack Radar 
System], AWACs [airborne warning and control system], our ICBM 
[intercontinental ballistic missile] fleet is going to have to 
be upgraded. I mean, I could go on and on--space. I could go on 
and on, but those are our top three.
    Mr. Wittman. Very good. Thanks, General Spencer.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you for your 
indulgence. I regret that I wasn't able to be here earlier, but 
you all know how sometimes many commitments at the same time. I 
just wanted to follow up quickly, because I think we all know 
that we have to translate all of this for not just our 
colleagues, but certainly for our constituents. And you have 
just talked about modernization and cited a few examples. And 
we know that these are funding requirements that are not part 
of OCO. They need to be sustaining over some time.
    And people sometimes think that, well, you are putting all 
this money in OCO, well, surely, you will be able to do 
everything that you need to do. And I think you have made the 
case very well this morning, I am sure. And I appreciate the 
question, particularly, that the chairman just asked.
    But could you--and you may have already done this. I am 
thinking about skill sets, I am thinking about the risks that 
we have to the men and women who serve our country.
    What is it about those skill sets, about the needs that we 
have--whether, you know, mental health to cyber, what have 
you--that puts our men and women at such risk that we need to 
really sound the alarm on this and exclaim that that is not 
something covered by OCO? How would you do that? And it is an 
elevator speech, obviously. You got about, you know, two 
sentences' worth.
    General Paxton. Congresswoman Davis, great to see you 
again, ma'am. Thanks.
    Mrs. Davis. Thank you, General. Good to see all of you.
    General Paxton. One of the things we did not discuss 
earlier, so this is really a topical question is we talk about 
the cohesion of a unit and the leader-to-led ratio. And both of 
those are critically important. The world is a much faster 
place than it has been, and it is a much more complex place 
than it has been. And I think all of us have in other 
testimonies talked about the skill sets that our small unit 
leaders indeed.
    And consequently, not only the skill sets that those 
leaders need, but the stability that the unit and the other 
soldier, sailor, airmen, marine deserves from having a skilled, 
trained leader at the helm. So with the OCO dollars, when we 
are paying for the current fight, the current reset, as opposed 
to reconstituting new gear, we mortgage the modernization and 
we also mortgage--when we talk about home station, training and 
we talk about modernized equipment, we reduce the capability to 
take that skilled leader and to train him or her on the 
equipment that we need in the conditions that we need with a 
number of what we call sets and reps we need, so that that 
leader is confident in his or her capabilities. And so that 
unit is confident in that leader.
    So I think in the future what we may see is services that 
are already kind of high-demand, low-density. But you may see a 
continued need to better train our leaders and perhaps age our 
force a little bit because you have to get those skills sets.
    Thank you, ma'am.
    Mrs. Davis. Thank you.
    General Allyn. Yes, ma'am. I will highlight another 
approach to this that we are working and that is, in order for 
us to ensure that the modernization programs that we have 
underway are better delivering the capability that our soldiers 
need, we are better linking our users with our developers and 
with our requirement's writers, so that we get the reps with 
that equipment and, more importantly, we get the feedback on 
what that equipment can do and cannot do. And what it shows us 
is that some of our new equipment is very complex. And it does 
require increased training for our incredibly bright and 
energetic young soldiers.
    And we require a--I would say a--just enough technological 
edge. We don't have to make it so hard to train that the 
limited training time that we get creates challenges for our 
ability to integrate new capabilities. So we are trying to 
tighten that linkage. Because at the end of the day, a soldier 
that is confident and competent with the equipment that they 
would provide them, because of the decisive edge of our 
leadership, they will dominate on the future battlefield. But 
we have got to give them the right equipment and the time to 
train on it to master.
    Admiral Howard. With the budget with OCO, you still have 
not removed the threat of sequestration. We have people who 
have lived through sequestration and it is a dissatisfying 
experience. And there are a couple of cohorts that are very 
important to readiness.
    One, we don't often talk about them, but we have got these 
wonderful public servants who are repair workers, shipyard 
workers, aviation depot artisans, engineers, IT [information 
technology] people. They are intrinsic to us maintaining 
readiness. And when we sequestered before, we furloughed those 
great public workers. And then when you--and so some of them 
retire early. You lose those skill sets. It could take years to 
go to for someone to go from apprentice to journeyman in order 
to be able to fix our ships or our aircraft.
    And then when we want to hire them back, they are deeply 
suspicious. These folks have to be able to earn a living and 
know that they can take care of their families and pay their 
mortgages, just like anybody else. And for some of our 
engineers, it is their patriotism that lets them serve. They 
could have much greater rewards in the outside world. So there 
is that cohort. So if you don't take away the suspicion that we 
might sequester again, we create angst in that workforce, that 
civilian workforce.
    Then the impact of that sequester, we are still dealing 
with an aviation depot backlog. That impacts the aircraft that 
we need to operate, but also for our officers to--our pilots to 
be able to train in.
    So our folks have knowledge of what it is like to 
sequester. So OCO will help us in the immediate, but it won't 
take away the threat and the angst that comes with that law 
looming over our head.
    Thank you.
    Mrs. Davis. Yes, thank you.
    General Spencer. And Congresswoman, I guess, if I was in an 
elevator and I only had a few seconds, I would probably make it 
personal. And so, I would describe it this way. I mean, I used 
to coach Little League football. And so, our job is to 
organize, train and equip, to provide forces to combatant 
commanders.
    So, as a football coach, I trained the kids how to play. I 
would not send anyone into the game without a helmet or 
shoulder pads or knowing how to tackle or how to protect 
themselves. That is what we do. But if you look at that sort of 
in the military, that is not--OCO doesn't fund any of that. It 
is--that is part of our base budget. If we have to get into the 
game, or we have to go to war, that is when OCO kicks in, 
because we have extra over-and-above expenses to our base.
    I think it is important to keep that difference--the 
differentiation, so we understand what the differences are, and 
make sure we don't mix what goes into base and what OCO is for. 
I just get worried when we do that.
    Mrs. Davis. Yes.
    General Spencer. How do we--and then what happens when OCO 
goes away? And what happens to predictability and all the other 
things you have heard about here? I really worry about that.
    Mrs. Davis. Yes. Thank you.
    Thank you, Mr. Chairman, for that time.
    Mr. Wittman. Thank you, Mrs. Davis.
    We will go to Mr. O'Rourke. And knowing that we have votes 
have been called at 9:48. So, you go ahead and ask your 
questions. We will try to do it as quickly as we can so we can 
wrap up.
    Mr. O'Rourke. Sure. Let me just start by thanking each of 
you for your testimony today. I think you made an excellent 
case for the folly of our current budget trajectory and how 
that is going to impact readiness. And I think you have given 
us some facts that we need to help our colleagues make the 
right decision to ensure that we don't cut any further, and 
that we support our greatest asset. And our greatest weapon, 
again, as General Paxton said, are the men and women who serve 
this country in uniform.
    General Allyn, you mentioned a 25 percent cut--I think that 
you said that--to modernization in the fiscal year 2016 budget. 
Tell me what kind of impact that is going to have to, say, the 
Brigade Modernization Command at Fort Bliss under General 
Charlton, the NIE--the Network Integration Evaluation exercises 
and the upcoming Army Warfighting Assessment that will take 
place there. Will we be able to continue to do those things? Or 
will we have to change those schedules and push those further 
out?
    General Allyn. Thanks, Congressman O'Rourke. We will--we 
have fully funded our Army Warfighting Assessment and our 
Network Integration exercise program. They are vital to us 
testing new capabilities. And, more importantly, getting it 
into the hands of our brigade combat team that trains out 
there.
    And, as you know, those are joint exercises and those are 
multinational exercises. We have had a battalion of the Marines 
participate in the last two exercises. We have had our 
teammates from Canada, from Australia, from the United Kingdom 
train with us there, and they will train with us there in the 
future.
    So, not only do we work on developing the modern 
capabilities we need, but we work on the concepts that will 
enable us to fight as a ``Force 2025 and Beyond'' force that 
the future will require of us. And we are able to get a lot of 
interoperability work with our most critical allies.
    So, it is fully funded. And General Charlton's leadership 
will remain critical to us achieving the objectives of that 
program.
    Mr. O'Rourke. So, just a quick follow-up question; 25 
percent cut--what does that affect?
    General Allyn. It primarily delays the procurement and 
acquisition of virtually every program that we have. So, you 
know, we won't achieve balance under the President's budget 
until fiscal year 2023. If sequestration comes back, it will be 
3 to 5 years longer than that. And that balance is people, 
modernization, and readiness.
    Mr. O'Rourke. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. O'Rourke.
    I just want to close by thanking all of our witnesses 
today. Thank you so much.
    I do want to end with a question. Just a simple yes or no 
answer.
    Obviously, where we are today with the budget that passed--
we have 96 billion additional dollars in OCO. In your 
perspective, understanding the long-term perspectives and the 
challenges that that creates in funding that way--none us like 
to do it that way. But if you put that in perspective of having 
that number now at $613 billion to authorize to and appropriate 
to, versus the BCA levels, which of those is more preferable to 
each of you?
    General Allyn.
    General Allyn. Well, clearly, Congressman Wittman, 
increased money delivers increased capability and provides 
better training, readiness, and modernization. So, you know, 
give us a choice of increased OCO or BCA, it is a simple 
answer.
    Mr. Wittman. Gotcha.
    Admiral Howard.
    Admiral Howard. A bird in the hand is always worth more 
than the bush, Congressman.
    Mr. Wittman. Yes, that is right.
    Admiral Howard. But it is--for the long term, it is not a 
good solution.
    Mr. Wittman. Correct. Yes.
    General Paxton.
    General Paxton. Yes, absolutely. So, the OCO dollars help 
in the short term. I continue to worry about the long term, our 
modernization, our training, and our exercises. We want to 
fight and win tonight and tomorrow, but we also want to make 
sure we don't do that at the expense of not being able to do it 
the day after tomorrow.
    Mr. Wittman. Exactly.
    General Paxton. Thank you, sir.
    Mr. Wittman. General Spencer.
    General Spencer. Same answer, Mr. Chairman. It is a 
patchwork.
    Mr. Wittman. Yes.
    General Spencer. And would hope going forward, we could 
come up with a better solution, but the same.
    Mr. Wittman. Absolutely.
    Well, thank you all so much. Thanks for your service. 
Thanks for coming in today. Thanks for your candidness. We have 
our work cut out for us to not only look at what we are doing 
with the short-term budget perspective, but I agree with you 
all. We have to create some long-term certainty here. And that 
is up to all of us here to make sure that we are working 
together to get that done.
    Thank you for what you do. Please thank your soldiers, 
sailors, marines, and airmen for the spectacular job they do 
for our Nation. And thank their families, too, for the 
sacrifice that they have made.
    Thank you so much.
    With that, the subcommittee is adjourned.
    [Whereupon, at 9:53 a.m., the subcommittee was adjourned.]



      
=======================================================================



                            A P P E N D I X

                             March 26, 2015

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 26, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
        
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 26, 2015

=======================================================================

      

                   QUESTION SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. Describe the series of events that led to the backlog 
in maintenance for legacy F-18 Hornet aircraft and the steps the Navy 
is taking to alleviate this backlog which is leading to a higher T-
rating, and therefore lower readiness, in the FY16 budget.
    Admiral Howard. The Department's legacy F/A-18A-D depot throughput 
challenge is attributed to a series of events beginning with delays in 
JSF procurement, which has translated to unplanned maintenance to 
extend the service life of legacy Hornet aircraft beyond the 6,000 hour 
design life. Additionally, COCOM-driven operations and Fleet Response 
Training Plan (FRTP) training and readiness requirements are driving an 
increased strike fighter utilization rate thereby adding to the current 
depot workload. In an effort to meet strike fighter inventory 
requirements, depot throughput of planned service life extension work 
has been complicated by the discovery of unexpected corrosion induced 
work, leading to longer repair times for inducted airframes.
    Furthermore, the constraints of sequestration, and multiple 
continuing resolutions, have limited the Navy's ability to replenish 
artisans and engineers to keep pace with personnel attrition and the 
increased breadth and depth of depot repair requirements associated 
with extending the service life of legacy Hornets. As a result of the 
2013 Budget Control Act, the Department imposed a nine month hiring 
freeze, which prevented the replenishment of some 400 artisans who 
voluntarily left the workforce. Additionally, budget reductions imposed 
as a result of sequestration limited the hiring capacity for engineers 
who support depot planning and inspection and repair disposition. 
Furthermore, the depots experienced an increased requirement for 
personnel to address new requirements, an increase in depot facility 
repair events, and an increase in scope of current work associated with 
aging legacy airframes. This increase in workload coupled with a 
decreased workforce has created a complex challenge at the organic 
depot facilities.
    To improve F/A-18 depot capacity, the Department is attacking the 
major barriers to production--manpower and material. This includes an 
aggressive hiring and training plan for artisans and engineers, and 
improved parts availability and staging for high flight hour (HFH) 
maintenance events based on common repair requirements. Additionally, 
the Navy has collaborated with Boeing in identifying several areas to 
improve overall depot throughput, such as employing Boeing Engineering 
Support and incorporating Super Hornet modifications at its Cecil Field 
facility. The strategy is proving successful as depot production levels 
are improving, but requires time to fully mature. With the requested 
funding, and under this plan, the Department anticipates continued 
improvement in depot throughput to meet annual production requirements 
by FY17 and full recovery by FY19.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. NUGENT
    Mr. Nugent. In this year's NDAA I will be submitting language 
asking the Surface Deployment and Distribution Command (SDDC) for a 
plan to reform the Defense Personal Property System (DPS). As you know, 
this is a system that thousands of military families use each year to 
organize and facilitate service member change of stations. In 2013, the 
Army entered into a contract to improve the functionality and ease of 
use for the system.
    Would you mind identifying the progress towards improving this 
system? Is the build out of the DPS system moving as scheduled or has 
it fallen behind?
    General Allyn. In 2013, USTRANSCOM entered into a 5-year contract 
to implement Increment III of DPS. Increment III's primary goal is to 
develop and implement for DPS the remaining three major capabilities, 
Non-Temporary Storage, Intra-country Moves, and Direct Procurement 
Moves, so that the legacy Transportation Operational Personal Property 
Standard System (TOPS) can be retired in 2018. In Fiscal Year (FY) 
2014, DPS supported over 550,000 shipments for military families 
worldwide and implemented eight maintenance releases, most of which 
remediated software defects from the previous developer or enhanced 
system security. The DPS Program Management Office also completed 
several major requirements refinement efforts with the Services, which 
allowed the developer to begin the requirements analysis phase for 
several Increment III capabilities. Website improvements were 
accelerated to meet the needs of our service members in 2015, which 
required a reprioritization of other tasks on contract. These 
improvements include customer ease-of-use updates for the Self-
counseling, Claims, and move.mil web pages and are scheduled to be 
completed in FY15. Additional improvements on contract for FY16-18 
include support for document management and imaging and digital 
signature capability, as well as server and software modernization to 
improve performance and stability. The implementation timeline has 
slipped approximately 4 months.
    Mr. Nugent. After more than a decade in Afghanistan, there have 
been a number of lessons learned not least of which have been in the 
functionality and reliability of our communications networks and 
equipment. Millions of Americans carry cell phones that are extremely 
user friendly and capable of texting, searching the Web and geo-
locating while soldiers on the battlefield have cumbersome and 
difficult to use systems.
    Currently, the Army is working towards improving the network under 
the Simplified Tactical Army Reliable Network (STARNet) program.
    Would you mind discussing the milestone progress of that plan?
    General Allyn. As our adversaries continue to invest in network and 
cyber capabilities, we must do so as well to keep our decisive edge. 
The Simplified Tactical Army Reliable Network (STARNet) is an 
overarching strategy to provide incremental network enhancements 
between 2016 and 2021; it is not a formal acquisition program. The Army 
is resourcing individual existing programs that align with the 
enhancements to simplify and harden the network. The endstate goals of 
the roadmap include: fielding modernized network capabilities across 
formations from Infantry, Stryker and Armored brigades to Aviation and 
enabling forces; delivering the Common Operating Environment to give 
Soldiers a familiar look and feel for their mission command 
applications from garrison to foxhole; simplifying and protecting the 
network to increase commanders' operational agility; improving tactical 
communications with joint, interagency, intergovernmental and 
multinational partners; creating smaller, lighter command posts for 
rapid deployment; and improving home station training and readiness to 
deliver uninterrupted mission command.
    Some examples of promising capability include small expeditionary 
satellite terminals, en route airborne mission command planning tools, 
air/ground radios, implementation of the Command Post and Mounted 
Computing Environment applications and hardware, and network monitoring 
tools. By inserting these capabilities into the current network, we 
achieve faster, economic benefits to military operations. We will see 
these improvements in the network as they are integrated between FY16-
21.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. Pennsylvania has the third largest National Guard in 
the nation, and in the 4 counties of the Pennsylvania 6th district, 
there are about 5,947 Guard members. The experience of all forces in 
combat and the high up-tempo of the post 9/11 military is an important 
and perishable capability. When Active Component members separate from 
service, DOD should work to keep those capabilities and experiences 
through the Guard or Reserves Components. How do you plan to 
incentivize our separating Active Component soldiers to join the Guard 
or Reserves?
    General Allyn. So far in FY 2015, we are exceeding established 
transition retention goals for active duty Soldiers to Army Reserve and 
National Guard Service. Both the Army Reserve (USAR) and Army National 
Guard (ARNG) offer incentives for transitioning Active Duty Soldiers to 
join the Selected Reserve.
    Among those incentives are the Officers Affiliation Bonus (OAB) and 
the Enlisted Affiliation Bonus (EAB), both of which may not exceed 
$20,000. Soldiers can apply for the OAB/EAB through a Reserve Component 
Career Counselor and/or an Active Component Career Counselor only while 
on Active Duty. Soldiers may execute the OAB/EAB addendum up to 180 
days prior to their scheduled Expiration of Term in Service date.
    In order to be eligible, Soldiers must: be serving on active duty 
or have served on active duty and are discharged under honorable 
conditions; have less than 20 years of total military service; have 
completed any term of service or period of obligated service; meet the 
re-entry and separation program designer code requirements for 
affiliation; affiliate as Duty Military Occupational Specialty 
Qualified directly into a USAR or ARNG critical skill vacancy from the 
Active Army; and agree to serve a minimum of three years in the 
Selected Reserve.
    Other incentives for service in units of the ARNG and USAR for both 
officers and enlisted include Drill/Battle Assembly pay; promotion and 
advanced training opportunities; life, health and dental insurance at 
very competitive rates; two-year deferment from mobilization in the 
USAR; and Reserve and veterans benefits authorized and administered by 
each state Government.
    Both components also offer educational benefits such as Federal 
Tuition Assistance, Student Loan Repayment, and GI Bill under certain 
conditions.
    Mr. Shuster. Pennsylvania has the third largest National Guard in 
the nation, and in the 4 counties of the Pennsylvania 6th district, 
there are about 5,947 Guard members. The experience of all forces in 
combat and the high up-tempo of the post 9/11 military is an important 
and perishable capability. When Active Component members separate from 
service, DOD should work to keep those capabilities and experiences 
through the Guard or Reserves Components. How do you plan to 
incentivize our separating Active Component soldiers to join the Guard 
or Reserves?
    Admiral Howard. There are 1,929 Navy Reserve Sailors who are based 
in Pennsylvania. They are supported by five Navy Operational Support 
Centers (Avoca, Lehigh Valley, Erie, Pittsburgh, Ebensburg, and 
Harrisonburg).
    In the Navy, we use a Continuum of Service (CoS) approach that 
provides opportunities for seamless transition between active and 
reserve components, and service status categories, to meet mission 
requirements and encourage a lifetime of service. Through our Navy 
Personnel Command Career Transition Office, monetary and non-monetary 
incentives, and options for continued service, are discussed with 
officer and enlisted Sailors prior to leaving active duty, to present 
options best suited to each individual transitioning Sailor.
    Affiliation bonuses may be used to attract transitioning Sailors 
with certain desired skill sets into the Navy Reserve. Non-monetary 
benefits of transitioning from active duty directly into the Selected 
Reserve include a 2-year involuntary mobilization deferment, continued 
access to TRICARE healthcare coverage and long-term care and life 
insurance, transferability of Post-9/11 GI-Bill benefits and other 
education opportunities, and the prospect for eventual non-regular 
retirement.
    Mr. Shuster. Pennsylvania has the third largest National Guard in 
the nation, and in the 4 counties of the Pennsylvania 6th district, 
there are about 5,947 Guard members. The experience of all forces in 
combat and the high up-tempo of the post 9/11 military is an important 
and perishable capability. When Active Component members separate from 
service, DOD should work to keep those capabilities and experiences 
through the Guard or Reserves Components. How do you plan to 
incentivize our separating Active Component soldiers to join the Guard 
or Reserves?
    General Paxton. The Marine Corps has multiple incentives to help 
retain talented Marines in the Reserve Component. First, the direct 
affiliation program (DAP) affords highly qualified active component 
(AC) Marines the opportunity to affiliate with a Selected Marine Corps 
Reserve (SMCR) unit following their end of active service (EAS). The 
DAP provides transitioning AC Marines a seamless transition into the 
SMCR with a guaranteed reserve billet prior to reaching their EAS. It 
also provides Marines with a no-cost six month extension of their 
existing Tricare benefits.
    Second, affiliation bonuses are also available for Marine officers, 
noncommissioned officers with critical skills and staff sergeants. The 
Marine Corps also offers inactive duty for training (IDT) travel 
reimbursement for staff noncommissioned officers and officers. This 
incentive pays up to $300 per month to more senior Marines who live 
greater than 300 miles from their reserve unit. This program has been 
very successful. In fact, the Center for Naval Analyses found that the 
IDT travel reimbursement program is associated with an estimated 10-
percentage point increase in manpower levels and a 24-percentage-point 
increase in regular drill attendance.
    Finally, most Marines leaving the active component are eligible to 
retrain to another military occupational specialty (MOS) if their local 
reserve unit does not have a requirement for the current MOS. This 
program has been critical to keeping the Marine Corps Reserve ready and 
relevant. Overall, the Marine Corps Reserve retrains approximately 400 
Marines per year.
    Mr. Shuster. Pennsylvania has the third largest National Guard in 
the nation, and in the 4 counties of the Pennsylvania 6th district, 
there are about 5,947 Guard members. The experience of all forces in 
combat and the high up-tempo of the post 9/11 military is an important 
and perishable capability. When Active Component members separate from 
service, DOD should work to keep those capabilities and experiences 
through the Guard or Reserves Components. How do you plan to 
incentivize our separating Active Component soldiers to join the Guard 
or Reserves?
    General Spencer. The Air Reserve Components are employing a number 
of tools, initiatives, and educational benefits to attract prior 
service members. Both the Air Force Reserve and Air National Guard 
leverage the access provided by In-Service Recruiters to capture 
departing service members. These Recruiters track separating Airmen and 
contact each one of them to ensure they are aware of the opportunities 
in the reserve component. They employ affiliation bonuses and 
incentives to attract members with critical skills and specialties.
    We are working on a Total Force awareness initiative sponsored by 
the Chief Master Sergeant of the Air Force which aims to educate Airmen 
of the opportunities within the reserve components at the earliest 
stages and throughout their Air Force service commitment. The 
initiative involves an awareness campaign as well as a cultural change 
via socialization of reserve component opportunities throughout 
leadership and supervisory channels.

                                  [all]
</pre></body></html>
